<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:03 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Murray, Domenici, Craig, and 
Allard.

                          DEPARTMENT OF ENERGY

                           Office of Science

STATEMENT OF HON. RAYMOND L. ORBACH, DIRECTOR

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. The hearing will come to order. This is the 
Senate Appropriations Committee, the Subcommittee on Energy and 
Water Development. We are reviewing today the fiscal year 2008 
budget request for the Department of Energy's Office of 
Science. Mr. Orbach, we welcome you. Thank you for being here.
    The proposed budget for the Office of Science is $4.397 
billion. That represents 18 percent of the Department of 
Energy's total budget and an increase of $600 million above the 
Office of Science's budget in the year 2007.
    Mr. Orbach, perhaps sometime you can whisper to us the 
secret of your relationship with OMB, that you come here with a 
proposed $600 million budget increase. You, indeed, are a rare 
species in this coming fiscal year. However it happened, 
though, we think this is a good outcome. We're committed to 
improving our Nation's ability to compete in the ever-changing 
global market place and we recognize that we have to improve 
our Nation's capabilities in mathematics and the sciences if 
we're going to continue to lead the way in innovation.
    This is particularly true in the physical science fields, 
where the Department of Energy is the leader among Federal 
agencies. In the future our country will have to maintain 
leadership in innovation and development and the Office of 
Science will be one of the keys in our success in doing that.
    A substantial increase in funding raises some different 
questions than when programs face significant decreases. But 
underlying both circumstances is the basic question of whether 
there is a plan to accommodate the change in funding and, if 
so, what is that plan? A doubling of funding over 9 years, for 
example, is an admirable goal, but we have to make sure there 
exists a plan that meets a defined goal.
    Further, we have to have a plan to maintain our base 
infrastructure in order to take advantage of investments in new 
instruments and new facilities. It's not enough to make 
investments in new instruments and facilities here at home, or 
in partnerships abroad, if we don't maintain our base programs 
and facilities.
    So the Office of Science is exploring the development of a 
number of new projects that also could have significant future 
costs, significant costs if taken to construction. And we need 
to know that out year budgeting will assume, or is assuming the 
construction, operation, and the research cost associated with 
each of those projects.
    So, Dr. Orbach, thank you for your work. I look forward to 
hearing your testimony. But, first, I will turn to my 
colleagues for any opening statements they have.
    Senator Domenici.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much.
    We're moving in a direction--this small office becoming a 
very large and powerful one. Maybe it can stay small and be 
powerful and you've alluded to how that might be done in early 
parts of your comments. But, in any event it's going to have a 
much bigger impact, somewhere, somehow, that seems quite 
obvious to me.
    I think you would be interested to know that Chairman 
Bingaman and I introduced an amendment to the budget resolution 
to increase funding for science research by $1 billion. In 
addition to fully funding the President's budget request, it 
also adds funding to funds like the America Competes Act. Mr. 
Chairman, I hope that you will look at this amendment.
    Dr. Orbach, you have had a very important job. It is your 
responsibility to challenge our labs with new and exciting 
scientific goals, as well as making investment in facilities 
and infrastructure to ensure U.S. leadership. The Energy Policy 
Act included a provision elevating your position from Director 
to Under Secretary to give you responsibility to set the 
science policies for the labs, including all of the NNSA 
facilities. And you will note that, the labs continue to 
support the best science in the world. Unfortunately, the 
funding provided by the Office of Science to these labs remains 
disproportionately low. The NNSA labs have great facilities 
that have been exclusively tools of the weapons program that 
should be incorporated into the Office of Science programs. 
Facilities, such as the Z machine and the MESA at Sandia will 
be open to tremendous new research opportunities to scientists 
and must be thought of as national user facilities.
    I understand that you are making some progress to develop a 
multi-agency board that will develop a high energy density 
plasma program consistent with the direction that I included in 
the 2006-2007 Energy and Water bills.
    I want you to know that I appreciate this bill. I still 
expect to see a viable research program that supports non-
weapons research on facilities like NIF and Z. I would also 
like to remind you of the tremendous computational capability 
and experience at the NNSA labs. As you know, it was the NNSA 
stockpile stewardship mission that fostered the undeveloped, 
high performance computing architecture that enabled this 
country to be the world leader in computing. Unfortunately, I 
don't believe the Department has dedicated sufficient resource, 
nor demonstrated its commitment to developing the next 
generation of architecture that will enable our country to 
sustain its world leadership in this field.
    Finally, let me say that I believe we need to work hard to 
address our climate challenges, and science will play a 
critical role in this, I believe. And, I believe we have two 
paths to reduce the man-made greenhouse gas emissions. And 
unless we pursue both, we won't be effective at all.
    First, of course, is to reduce our dependence on foreign 
oil with biomass and alternative energy as well as developing 
low emission energy sources such as nuclear power. 
Implementation of EPACT and the American Competitiveness 
Initiative will ensure we are on the right path.
    The second is to ensure that large, fast growing economies 
like China and India adopt these same technologies. We need to 
join with these countries as full partners to ensure that 
technology development and adoption occurs. Without it, we 
won't be successful. I'm committed to developing a full 
partnership with China and India, but they need to recognize 
that this isn't a free ride. It is a partnership. They need to 
dedicate the resources to solving this problem.
    Thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

    Dr. Orbach, it is a pleasure to welcome you back to the 
subcommittee. I am pleased with the fiscal year 2008 budget request for 
the Office of Science because it continues to support objectives 
provided for in EPACT and sustains the President's commitment to double 
funding for basic science research over the next decade.
    This research is vital to our economic competitiveness and our 
ability to reduce our dependence on foreign energy, including solving 
some of the long term R&D challenges associated with solar, biomass, 
hydrogen and nuclear power.
    Dr. Orbach, you have another important responsibility and that is 
to challenge our labs with new and exciting scientific goals as well as 
making investments in facilities and infrastructure to ensure U.S. 
leadership.
    The Energy Policy Act included a provision elevating your position 
from Director to Under Secretary to give you the responsibility to set 
the science policy for all the labs, including NNSA facilities.
    As you well know, NNSA labs continue to support some of the best 
science in the world and have been recognized with Nobel prizes, E.O. 
Lawrence Awards and dozens of R&D 100 Awards. Unfortunately, the 
funding provided by the Office of Science remains disproportionately 
low.
    The NNSA labs have great facilities that have been the exclusive 
tools of the weapons program that should be incorporated into the 
Office of Science research programs. Facilities such as the Z machine 
and MESA at Sandia will open up tremendous new research opportunities 
to scientists and must be thought of as national user facilities.
    I understand that you are making some progress to develop a multi-
agency advisory board that will develop the high energy density plasma 
program consistent with the direction that I included in the fiscal 
year 2006 and fiscal year 2007 Energy and Water bills.
    I want you to know that I appreciate this effort, but I still 
expect to see a viable research program that supports non weapons 
research on facilities like NIF and Z.
    I would also like to remind you of the tremendous computational 
capability and experience at NNSA labs. As you know, it was NNSA's 
Stockpile Stewardship mission that necessitated the development of the 
current high performance computing architecture that has enabled this 
country to be the world leader in computing.
    As a result, this has also enabled the Office of Science to deploy 
some of the fastest computers in the world at Oak Ridge, Berkeley and 
Argonne National labs.
    Unfortunately, I don't believe the Department has dedicated 
sufficient resources, nor demonstrated its commitment to developing the 
next generation architecture that will enable our country to sustain 
its leadership in this field.
    We continue to have two separate computing programs and this budget 
diverts resources to DARPA to support a separate R&D program. That must 
change.
    These problems can be solved, but it will force the Office of 
Science and NNSA to work together on improving scientific research at 
all of our labs.
    Dr. Orbach, I hope I can count on your support to breakdown the 
walls of bureaucracy to solve this problem.
    Thank you, Mr. Chairman.

    Senator Dorgan. Senator Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Mr. Chairman, I'll be brief. Mr. Secretary, 
thank you, for being here and thank you for coming to the Idaho 
lab, the INL, last August. We appreciated your presence there, 
and I am told you left impressed with the resource and the 
talent that is available. We have some phenomenal assets and 
when I'm sitting here listening to Senator Domenici, I'm 
thinking about the old admonishment in front of the United 
Nations, ``swords into plow shares.'' And, the ability for us 
to use these phenomenal laboratories that were once, in part, 
related to the cold war, some of them more so than others.
    Now with assets that they have, that were once for war, can 
not only be made for peace, but we've already begun to use the 
tremendous capabilities and talents that are there for those 
purposes. We have, at our laboratory, some of those unique 
resources, as you know, the advanced test reactor, the ability 
to relate it, not just to a Federal mission, but to private and 
quasi-public relationships, I think is extremely valuable. It 
is a national asset, unique in many ways, that--something I'll 
discuss with you later on in questioning, but making it a user 
facility, I think, becomes increasingly important as we work 
with and--I was just visiting with Clay Sell today and Dennis 
Spurgeon. New partnerships between the Federal Government and 
the private sector. The Federal Government used to be this 
great black box and DOE especially, into which all things went, 
especially money.
    Today we have phenomenal demand for what can be produced. 
We don't have the resources, unless we partner and we leverage 
with the private sector. Not just our private sector, but the 
world's private sector. Because most of what we want to do 
needs to be very transparent and available to the rest of the 
world, whether it's clean energy sources, whether it's human 
health, and all of those types of things. I'm pleased to see 
that we're focusing. We've spent a lot of money, appropriately 
so directed at, by the biological sciences over the last 
decade. Now I think it's time we pony up on the physical 
sciences because they're merging out there in a way that 
probably we could never predicted a decade ago. And, in that is 
great opportunity.
    Thank you.
    Senator Dorgan. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, thank you for holding this 
hearing. And, welcome, Mr. Secretary. As you know, Mr. 
Chairman, you and I are co-chairmen of the Senate Renewable 
Energy and Energy Efficiency Caucus. And, I represent a State, 
which, we have the National Renewable Energy Laboratory. 
They're doing a lot of good work. They're working on basic 
technologies, moving those into the marketplace. I think that's 
a proper focus. And as a scientist, myself, I consider myself 
an applied scientist. Being a veterinarian, I understand how 
good basic research has to be done in order for me as a 
veterinarian, to be able to take care of the livestock 
industry, or pet animals, whether it's working for the CDC Lab, 
or FDA, or whatever. And, it all comes down to a lot of good 
basic research that has to be done.
    I note that the Office of Science is the primary agency in 
the Federal Government in energy-related basic research. I 
think this a very important distinction that should be pointed 
out. While basic scientific research is the basis for applied 
sciences and leads to scientific advancement, it is often not 
profitable, so industry struggles to invest in basic research. 
This is where the government comes in, by funding basic 
research. It is picked up by industry and the advanced science 
communities.
    I've had time to go and visit many of our laboratories, 
been out to Lawrence Livermore, been to Sandia Laboratory that 
Senator Domenici mentioned, Los Alamos Lab, and have been 
following much of the research in MOx Plus, for example. And, I 
feel that this is where it all starts.
    We heard a presentation this morning from Ron Sega who was 
talking about our satellite program. He talked about his cycle 
of development. It all starts with good scientific basic 
research. And then you develop it to applied, then you get your 
prototype level, and then you get into the production stage. 
And, so I really can't stress how important I think your job is 
and responsibilities are.
    More attention today is being focused on clean energy and 
energy efficiency technologies due to ever-increasing supply 
constraints and demand increases, diversification of our energy 
portfolios becoming more important than ever. This means the 
development of alternative energy sources is also more 
important than ever. Renewable energy is a very important way 
that we can begin to reduce the demand for oil, and thereby 
help to make our country more secure. Research and the input of 
both government and industries are very important allowing 
these opportunities to live up to their potential.
    We must continue to provide incentives for the 
implementation of renewable technologies and for the 
infrastructure necessary to support these renewable sources. 
These technologies are a necessary step in balancing our 
domestic energy portfolio, increasing our Nation's energy 
security, and advancing our country's technological excellence.
    So, I look forward to working with the committee to ensure 
research and development, in all fields of energy technology, 
are funded in a manner that is responsible, but sufficient to 
ensure that the development and implementation of new 
technologies continues.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you to you and Senator 
Domenici for having this important hearing. I think the Office 
of Science is very important and investment in research and 
development is obviously critical. Dr. Orbach, I'm glad to see 
you again. This hearing gives us another opportunity to talk 
about the Capability Replacement Laboratory for PNNL. This 
project is a top priority for the lab and I have a couple of 
questions regarding the funding for that project. As you know 
there were no funds in the fiscal year 2007 budget request but 
Congress added $10 million to the Office of Science for the 
effort. I was pleased to hear from you recently that the 
additional $10 million would be included in the fiscal year 
2007 work plan. However, I understand that funding is being 
held in reserve and can't be utilized until OMB approves the 
third party financing package. I also understand the fund 
requested in the fiscal year 2008 budget will also be held in 
reserve pending OMB approval.
    Would you share with the committee what you intend to do to 
prevent delay of this critical project?
    Senator Dorgan. Senator, actually, Mr. Orbach has not yet 
given his opening statement.
    Senator Murray. Oh, I apologize. I came in late and didn't 
realize we had not heard Dr. Orbach's opening statement.
    Senator Dorgan. I would like to give him the opportunity to 
give his opening statement.
    All right. Thank you very much.
    Senator Cochran has submitted a statement that he would 
like placed in the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the Under 
Secretary for Science, Dr. Raymond Orbach. I am pleased that we were 
able to increase the budget for the Office of Science under the 
Continuing Resolution for fiscal year 2007.
    As Under Secretary for Science and Director of the Office of 
Science, Dr. Orbach has had the responsibility of overseeing research 
and development at 17 national laboratories across the country, 
including both the National Nuclear Security Laboratories and the 
Office of Science Laboratories. I am pleased that the fiscal year 2008 
budget includes funding to continue the American Competitiveness 
Initiative, a program that has become increasingly important to our 
scientific community in America.
    Of particular interest to me is the Basic Energy Sciences program 
which supports the Advanced Energy Initiative and biomass production 
research. Mississippi has much to contribute in the emerging biomass 
arena, and it is my hope that the universities and scientists in 
Mississippi might work with your researchers in the Office of Science 
to further develop this field.
    It is a pleasure to welcome you to the committee. I look forward to 
hearing your testimony.

    Senator Dorgan. Secretary Orbach, thank you very much. 
Please proceed. Your entire statement will be a part of the 
permanent record, and you may summarize.

                  STATEMENT OF HON. RAYMOND L. ORBACH

    Dr. Orbach. Thank you, Chairman Dorgan, Senator Domenici, 
members of the committee. And, indeed, I will answer those 
questions.
    I'm very grateful. Thank you for this opportunity for me to 
present the President's fiscal year 2008 budget request for the 
Department of Energy's Office of Science.
    As some of you noted, we are the primary agency in the 
Federal Government for energy-related basic research. Our 
office interfaces with the Department's applied research and 
defense programs upon which our Nation relies for both energy 
security and national defense. Our goal is to underpin the 
applied research programs with the finest basic science and, at 
the same time, to energize our basic research with the insights 
and opportunities that come from advanced applied research.
    Transformational basic science discoveries are essential 
for the success of the Department's efforts in such renewable 
energy sources as hydrogen, solar power, and bio-fuels. And in 
electrical energy storage, which is critical for many renewable 
energy sources because they are intermittent. We are one 
department and we have been working very hard to strengthen the 
relationship between the Department's basic and applied 
research programs.
    Let me say a few words this afternoon about the critical 
role that basic science plays in addressing our Nation's energy 
challenge and the role of the Office of Science. First, 
cellulosic ethanol. To make this bio-fuel truly cost effective, 
we must produce ethanol from cellulose efficiently. The problem 
is that the lignins surrounding the cellulose in plants inhibit 
currently available enzymes from breaking down the cellulose to 
sugars that then are fermented into ethanol.
    The Office of Science will be deploying three new 
innovative bioenergy research centers, studying both microbes 
and plants, developing new methods, based on processes actually 
found in nature, to create the breakthroughs we need.
    I can give you an example. Our Department of Energy Joint 
Genome Institute recently announced in conjunction with the 
U.S. Forest Service, the identification of the metabolic 
pathway in a fungus found in the bowels of insects that holds 
the secret to effective fermentation of the sugar xylose, a key 
to making cellulosic ethanol cost-effective.
    Second, intermittent sources of electricity, such as solar 
and wind. The key to base-load electrical generation from these 
intermittent renewable sources is electrical energy storage. In 
April of this year, we'll be bringing together leading 
scientists, technologists, and industry at a major workshop to 
chart a transformational path forward for electrical energy 
storage. We shall be considering super-capacitors and other 
innovative approaches based on the latest advances in material 
science and nanotechnology to change the way we approach 
electrical energy storage. Solving this problem is a key to 
enabling renewable energy to make major contributions to 
electric base-load generation.
    These are examples of our mission in the Office of Science. 
To invest in basic research designed to create transformational 
breakthroughs for our Nation. Supporting transformational 
research also means providing cutting-edge scientific 
facilities through our national laboratories that will allow 
scientists from universities and the private sector to do the 
analysis that will give them an advantage over their colleagues 
in other countries, thereby contributing to American 
competitiveness. It means educating, training, and sustaining a 
world-class scientific workforce, thousands strong, 25,500 in 
our fiscal year 2008 budget in universities and laboratories 
across our Nation for the sake of our country's future.

                           PREPARED STATEMENT

    We are not doing this in a vacuum. Other nations are 
increasing their investment in basic research because they know 
those who dominate science will dominate the 21st century 
global economy. The President's fiscal year 2008 budget request 
for the Office of Science totals $4.4 billion, an increase of 
15.8 percent or $600 million over the fiscal year 2007 
appropriation. It is an important milestone on the path towards 
doubling Federal support for basic research and the physical 
sciences over the next 10 years.
    And, in my view, an indispensable investment in our 
Nation's energy security and America's continued 
competitiveness in the global economy.
    Thank you.
    [The statement follows:]

              Prepared Statement of Hon. Raymond L. Orbach

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today on the Office of Science's fiscal year 
2008 budget request. I appreciate your support for the Office of 
Science and basic research in the physical sciences, Mr. Chairman, and 
your understanding of the importance of this research to our Nation's 
energy security and economic competitiveness. I also want to thank the 
members of the committee for their support. I believe this budget will 
enable the Office of Science to deliver on its mission and enhance U.S. 
competitiveness through our support of transformational science, 
national scientific facilities, and the scientific workforce for the 
Nation's future.
    The Office of Science requests $4,397,876,000 for the fiscal year 
2008 Science appropriation, an increase of $600,582,000 over the fiscal 
year 2007 appropriated level. The fiscal year 2008 budget request for 
the Office of Science represents the second year of the President's 
commitment to double the Federal investment in basic research in the 
physical sciences by the year 2016 as part of the American 
Competitiveness Initiative. It also represents a continued commitment 
to maintain U.S. leadership in science and recognition of the valuable 
role research in the physical sciences plays in technology innovation 
and global competitiveness.
    With the fiscal year 2008 budget request the Office of Science will 
continue to support transformational science--basic research for 
advanced scientific breakthroughs that will revolutionize our approach 
to the Nation's energy, environment, and national security challenges. 
The Office of Science is the Nation's steward for fields such as high 
energy physics, nuclear physics, heavy element chemistry, plasma 
physics, magnetic fusion, and catalysis. It also supports unique 
components of U.S. research in climate change and geophysics.
    Researchers funded through the Office of Science are working on 
some of the most pressing scientific challenges of our age including: 
(1) Harnessing the power of microbial communities and plants for energy 
production from renewable sources, carbon sequestration, and 
environmental remediation; (2) Expanding the frontiers of 
nanotechnology to develop materials with unprecedented properties for 
widespread potential scientific, energy, and industrial applications; 
(3) Pursuing the breakthroughs in materials science, nanotechnology, 
biotechnology, and other fields needed to make solar energy more cost-
effective; (4) Demonstrating the scientific and technological 
feasibility of creating and controlling a sustained burning plasma to 
generate energy, as the next step toward making fusion power a 
commercial reality; (5) Using advanced computation, simulation, and 
modeling to understand and predict the behavior of complex systems 
beyond the reach of some of our most powerful experimental probes, with 
potentially transformational impacts on a broad range of scientific and 
technological undertakings; (6) Understanding the origin of the 
universe and nature of dark matter and dark energy; and (7) Resolving 
key uncertainties and expanding the scientific foundation needed to 
understand, predict, and assess the potential effects of atmospheric 
carbon dioxide on climate and the environment.
    U.S. leadership in many areas of science and technology depends in 
part on the continued availability of the most advanced scientific 
facilities for our researchers. The Office of Science builds and 
operates national scientific facilities and instruments that make up 
the world's most sophisticated suite of research capabilities. The 
resources available for scientific research include advanced 
synchrotron light sources, the new Spallation Neutron Source, state-of-
the-art Nanoscale Science Research Centers, supercomputers and high-
speed networks, climate and environmental monitoring capabilities, 
particle accelerators and detectors for high energy and nuclear 
physics, and genome sequencing facilities We are in the process of 
developing new tools such as an X-ray free electron laser light source 
that can image single large macromolecules and measure in real-time 
changes in the chemical bond as chemical and biological reactions take 
place, a next generation synchrotron light source for X-ray imaging and 
capable of nanometer resolution, and detectors and instruments for 
world-leading neutrino physics research. SC will also select and begin 
funding in fiscal year 2007 for three Bioenergy Research Centers to 
conduct fundamental research on microbes and plants needed to produce 
biologically-based fuel.
    Office of Science leadership in support of the physical sciences 
and stewardship of large national research facilities is directly 
linked to our historic role in training America's scientists and 
engineers. In addition to funding a diverse portfolio of research at 
more than 300 colleges and universities nationwide, we provide direct 
support and access to research facilities for thousands of university 
students and researchers. Facilities at the national laboratories 
provide unique opportunities for researchers and their students from 
across the country to pursue questions at the intersection of physics, 
chemistry, biology, computing, and materials science. About half of the 
annual 21,000 users of the Office of Science's scientific facilities 
come from universities. The fiscal year 2008 budget will support the 
research of approximately 25,500 faculty, postdoctoral researchers, and 
graduate students throughout the Nation, an increase of 3,600 from 
fiscal year 2006, in addition to supporting undergraduate research 
internships and fellowships and research and training opportunities for 
K-14 science educators at the national laboratories.
    The approximate $600 million increase in fiscal year 2008 from the 
fiscal year 2007 appropriated level will bring manageable increases to 
the Office of Science programs for long planned for activities. The 
fiscal year 2008 request will allow the Office of Science to increase 
support for high-priority DOE mission-driven scientific research and 
new initiatives; maintain optimum operations at our scientific user 
facilities; continuing major facility construction projects; and 
enhance educational, research, and training opportunities for the 
Nation's future scientific workforce. The budget request will also 
support basic research that contributes to Presidential initiatives 
such as the Hydrogen Fuel Initiative and the Advanced Energy 
Initiative, the Climate Change Science and Technology Programs, and the 
National Nanotechnology Initiative.
    The following programs are supported in the fiscal year 2008 budget 
request: Basic Energy Sciences, Advanced Scientific Computing Research, 
Biological and Environmental Research, Fusion Energy Sciences, High 
Energy Physics, Nuclear Physics, Workforce Development for Teachers and 
Scientists, Science Laboratories Infrastructure, Science Program 
Direction, and Safeguards and Security.

                                        OFFICE OF SCIENCE FISCAL YEAR 2008 PRESIDENT'S REQUEST SUMMARY BY PROGRAM
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Fiscal Year                    Fiscal Year 2008 Request vs.
                                                            Fiscal Year     Fiscal Year        2007         Fiscal Year  -------------------------------
                                                           2006 Approp.    2007 Request     Approp.\1\     2008 Request       Request         Approp.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Basic Energy Sciences...................................       1,110,148       1,420,980  ..............       1,498,497         +77,517  ..............
Advanced Scientific Computing Research..................         228,382         318,654  ..............         340,198         +21,544  ..............
Biological and Environmental Research...................         564,077         510,263  ..............         531,897         +21,634  ..............
High Energy Physics.....................................         698,238         775,099  ..............         782,238          +7,139  ..............
Nuclear Physics.........................................         357,756         454,060  ..............         471,319         +17,259  ..............
Fusion Energy Sciences..................................         280,683         318,950  ..............         427,850        +108,900  ..............
Science Laboratories Infrastructure.....................          41,684          50,888  ..............          78,956         +28,068  ..............
Science Program Direction...............................         159,118         170,877  ..............         184,934         +14,057  ..............
Workforce Development for Teachers and Scientists.......           7,120          10,952  ..............          11,000             +48  ..............
Safeguards and Security.................................          68,025          70,987  ..............          70,987  ..............  ..............
SBIR/STTR...............................................         116,813  ..............  ..............  ..............  ..............  ..............
                                                         -----------------------------------------------------------------------------------------------
      Total, Office of Science..........................       3,632,044       4,101,710       3,797,294       4,397,876        +296,166        +600,582
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2007 program allocation plan not yet finalized.

                  FISCAL YEAR 2008 SCIENCE PRIORITIES
    The challenges we face today in energy and the environment are some 
of the most vexing and complex in our history. Our success in meeting 
these challenges will depend in large part on how well we maintain this 
country's leadership in science and technology because it is through 
scientific and technological innovation and a skilled workforce that 
these challenges will be solved.
    President George W. Bush made this point in his State of the Union 
Message on January 23, 2007, when he stated,

    ``It's in our vital interest to diversify America's energy supply--
the way forward is through technology . . . We must continue changing 
the way America generates electric power, by even greater use of clean 
coal technology, solar and wind energy, and clean, safe nuclear power. 
We need to press on with battery research for plug-in and hybrid 
vehicles, and expand the use of clean diesel vehicles and biodiesel 
fuel. We must continue investing in new methods of producing ethanol--
using everything from wood chips to grasses, to agricultural wastes . . .
    ``America is on the verge of technological breakthroughs that will 
enable us to live our lives less dependent on oil. And these 
technologies will help us to be better stewards of the environment, and 
they will help us confront the serious challenge of global climate 
change.''

    In 2006, the President announced a commitment to double the budget 
for basic research in the physical sciences at key agencies over 10 
years to maintain U.S. leadership in science and ensure continued 
global competitiveness. This commitment received bipartisan support in 
both the House of Representatives and the Senate and the fiscal year 
2008 budget request for the Office of Science represents the second 
year of this effort. Through the fiscal year 2008 budget, the Office of 
Science will build on its record of results with sound investments to 
keep U.S. research and development at the forefront of global science 
and prepare the scientific workforce we will need in the 21st century 
to address our Nation's challenges.
    Determining and balancing science and technology priorities across 
the Office of Science programs is an ongoing process. Several factors 
are considered in our prioritization, including scientific 
opportunities identified by the broader scientific community through 
Office of Science sponsored workshops; external review and 
recommendations by scientific advisory committees; DOE mission needs; 
and national and departmental priorities. In fiscal year 2008, we will 
support the priorities in scientific research, facility operations, and 
construction and laboratory infrastructure established in the past few 
years and outlined in the Office of Science Strategic Plan and Twenty-
year Facilities Outlook, in addition to national and departmental 
priorities and new research opportunities identified in recent 
workshops.
    National initiatives in hydrogen fuel cell and advanced energy 
technologies will be supported through our contributions to basic 
research in hydrogen, fusion, solar energy-to-fuels, and production of 
ethanol and other biofuels from cellulose. We will also continue strong 
support for other administration priorities such as nanotechnology, 
advanced scientific computation, and climate change science and 
technology.
    The Office of Science will support three Bioenergy Research Centers 
in fiscal year 2008 as part of the broader Genomics: GTL program. These 
centers, to be selected in fiscal year 2007 and fully operational by 
the end of 2008, will conduct comprehensive, multidisciplinary research 
programs focused on microbes and plants to drive scientific 
breakthroughs necessary for the development of cost-effective biofuels 
and bioenergy production. The broader GTL program will also continue to 
support fundamental research and technology development needed to 
understand the complex behavior of biological systems for the 
development of innovative biotechnology solutions to energy production, 
environmental mitigation, and carbon management.
    The Office of Science designs, constructs, and operates facilities 
and instruments that provide world-leading research tools and 
capabilities for U.S. researchers and will continue to support next 
generation tools for enabling transformational science. For example, 
the Spallation Neutron Source (SNS), the world's forefront neutron 
scattering facility, increases the number of neutrons available for 
cutting-edge research by a factor of 10 over any existing spallation 
neutron source in the world. SNS was completed and began operations in 
2006 and in fiscal year 2008 full operations are supported and 
additional experimental capabilities continue to be added.
    When it comes on line, the Linac Coherent Light Source (LCLS) at 
the Stanford Linear Accelerator Center (SLAC) will produce X-rays 10 
billion times more intense than any existing X-ray source in the world, 
and will allow structural studies on individual nanoscale particles and 
single biomolecules. Construction of LCLS continues in fiscal year 
2008.
    A next generation synchrotron light source, the National 
Synchrotron Light Source-II (NSLS-II), would deliver orders of 
magnitude improvement in spatial resolution, providing the world's 
finest capabilities for X-ray imaging and enabling the study of 
material properties and functions, particularly at the nanoscale, at a 
level of detail and precision never before possible. Its energy 
resolution would explore dynamic properties of matter as no other light 
source has ever accomplished. Support for continued R&D and project 
engineering and design (PED) are provided in fiscal year 2008.
    All five of DOE's Nanoscale Science Research Centers (NSRCs) will 
be operating in fiscal year 2008. These facilities are the Nation's 
premier nanoscience user centers, providing resources unmatched to the 
scientific community for the synthesis, fabrication, and analysis of 
nanoparticles and nanomaterials.
    We will fully fund the programs for advanced scientific computing, 
including: continued support for high-performance production computing 
at the National Energy Research Scientific Computing Center (NERSC), 
which will increase capacity to 100-150 teraflops in fiscal year 2007; 
support for advanced capabilities for modeling and simulation of 
scientific problems in combustion, fusion, and complex chemical 
reactions at Oak Ridge National Laboratory's Leadership Computing 
Facility, which should deliver 250 teraflops computing capability by 
the end of fiscal year 2008; and support for the upgrade to 250-500 
teraflop peak capacity of the IBM Blue Gene P system at Argonne 
National Laboratory's Leadership Computing Facility to extend 
architectural diversity in leadership computing.
    The Office of Science continues to be a partner in the interagency 
Climate Change Science Program focusing on understanding the principal 
uncertainties of the causes and effects of climate change, including 
abrupt climate change, understanding the global carbon cycle, 
developing predictive models for climate change over decades to 
centuries, and supporting basic research for biological sequestration 
of carbon. We also continue to support research in geosciences and 
environmental remediation towards the development of scientific and 
technological solutions to long-term environmental challenges.
    The Office of Science will continue to actively lead and support 
the U.S. contributions to ITER, the international project to build and 
operate the first fusion science facility capable of producing a 
sustained burning plasma to generate energy on a massive scale without 
environmental insult. The historic international fusion energy 
agreement to build ITER with six other international partners was 
signed in November 2006.
    We continue strong support for experimental and theoretical high 
energy physics and the study of the elementary constituents of matter 
and energy and interactions at the heart of physics. Full operations at 
the Tevatron Collider at Fermilab and the B-factory at SLAC are 
supported to maximize the scientific research and data derived from 
these facilities. Full operation of the neutrino oscillation experiment 
at Fermilab and start of fabrication of a next generation detector are 
supported to provide a platform for a world-leading neutrino program in 
the U.S. International Linear Collider (ILC) R&D and superconducting 
radio frequency technology R&D are supported to enable the most 
compelling scientific opportunities in high energy physics in the 
coming decades.
    Our research programs in nuclear physics continue to receive strong 
support. Operations at the Relativistic Heavy Ion Collider (RHIC) and 
additional instrumentation projects for RHIC are supported for studies 
of the properties of hot, dense nuclear matter, providing insight into 
the early universe. We will also support operations at the Continuous 
Electron Beam Accelerator Facility (CEBAF), the world's most powerful 
``microscope'' for studying the quark structure of matter, and project 
engineering and design and R&D for doubling the energy of the existing 
beam at CEBAF to 12 gigaelectron volts (GeV). Support for R&D to 
develop advanced rare isotope beam capabilities for the next generation 
U.S. facility for nuclear structure and astrophysics is also provided.
    The standard of living we enjoy and the security of our Nation now 
and in the future rests on the quality of science and technology 
education we provide America's students from elementary through 
graduate school and beyond. The fiscal year 2008 budget will provide 
support for over 25,500 Ph.D.s, graduate students, engineers, and 
technical professionals, an increase of 3,600 over the number supported 
in fiscal year 2006. The Office of Science will also support the 
development of leaders in the science and mathematics education 
community through participation of K-14 teachers in the DOE Academies 
Creating Teacher Scientists program, formerly the Laboratory Science 
Teacher Professional Development program. This immersion program at the 
national laboratories is an opportunity for teachers to work with 
laboratory scientists as mentors and to build content knowledge, 
research skills, and lasting connections to the scientific community, 
ultimately leading to more effective teaching that inspires students in 
science and math. The year 2008 will also mark the 18th year of DOE's 
National Science Bowl for high school students. National Science Bowl 
events for high school and middle school students, which will involve 
17,000 students across the Nation this year, provide prestigious 
academic competitions that challenge and inspire the Nation's youth to 
excel in math and science.

                        SCIENCE ACCOMPLISHMENTS

    For more than 50 years, the Office of Science (SC) has balanced 
basic research, innovative problem solving, and support for world-
leading scientific capabilities, enabling historic contributions to 
U.S. economic and scientific preeminence. American taxpayers have 
received good value for their investment in basic research sponsored by 
the Office of Science; this work has led to significant technological 
innovations, new intellectual capital, improved quality of life, and 
enhanced economic competitiveness. The following are some of the past 
year's highlights:
    Nobel Prize in Physics.--The 2006 Nobel Prize in physics was 
awarded to Dr. George Smoot (DOE Lawrence Berkeley National Laboratory 
and University of California, Berkeley) and Dr. John Mather (NASA 
Goddard Space Flight Center) for their discovery of ``the blackbody 
form and anisotropy of the cosmic microwave background radiation,'' the 
pattern of minuscule temperature variations in radiation which allowed 
scientists to gain better understanding of the origins of galaxies and 
stars. These two American scientists led the teams of researchers who 
worked on the historic 1989 NASA COBE satellite. The results of their 
work provided increased support for the ``Big Bang'' theory of the 
universe and marked the inception of cosmology as a precise science. SC 
supported Dr. Smoot's research during the period in which he worked on 
the COBE experiment, and continues to support his research today. One 
of the principal instruments used to make the discoveries was built at 
SC-supported facilities at Lawrence Berkeley National Laboratory and 
DOE's National Energy Research Scientific Computing Center 
supercomputers were used to analyze the massive amounts of data and 
produce detailed visual maps.
    Advancing Science and Technology for Bioenergy Solutions.--
Harnessing the capabilities of microbes and plants holds great 
potential for the development of innovative, cost-effective methods for 
the production of biofuels and bioenergy. Sequencing of the poplar tree 
genome was completed as part of a DOE national laboratory-led 
international collaboration; the information encoded in the poplar 
genome will provide researchers with an important resource for 
developing trees that produce more biomass for conversion to biofuels 
and trees that can sequester more carbon from the atmosphere. The DOE 
Joint Genome Institute (JGI) marked a technical milestone this year 
with the 100th microbe genome sequenced; Methanosarcina barkeri fusaro 
is capable of living in diverse and extreme environments, produces 
methane from digesting cellulose and other complex sugars, and provides 
greater understanding of potential new methods for producing renewable 
sources of energy. A chemical imaging method developed using a light-
producing cellulose synthesizing enzyme allowed researchers to observe 
the enzyme as it deposited cellulose fibers in a cell, providing 
greater understanding of the mechanism for cellulose formation.
    Delivering Forefront Computational and Networking Capabilities for 
Science.--Several 2006 advances in computing, computational sciences, 
and networking enabled greater opportunities for computational research 
and effective management of data collected at DOE scientific user 
facilities. NERSC began to increase its peak capacity by a factor of 
100 and the Oak Ridge National Laboratory (ORNL) Leadership Computing 
Facility doubled its capability to 54 teraflops to provide additional 
resources for computationally intensive, large-scale projects. The 
Energy Sciences Network expanded in 2006 to include the Chicago and New 
York-Long Island metropolitan area networks (MANs), bringing dual 
connectivity at 20 gigabits per second and highly reliable, advanced 
network services to accommodate next-generation scientific instruments 
and supercomputers. Chemistry software using parallel-vector algorithms 
developed by researchers at ORNL has enabled computations 40 times more 
complex and 100 times faster than previous state-of-the-art codes. The 
development of a multiscale mathematical framework for simulating the 
process of self-organization in biological systems has led to the 
discovery of a previously unidentified cluster state, providing 
possible applications to modeling microbial populations.
    Advances in Basic Science for Energy Technologies.--Current and 
future national energy challenges may be partially addressed through 
scientific and technological innovation. Some recent accomplishments in 
basic science that may contribute to future energy solutions include 
the following. Basic research on the molecular design and synthesis of 
new polymer membranes has lead to the discovery of a new fuel cell 
membrane that is longer lasting and three times more proton conductive 
than the current gold standard for proton exchange membrane fuel cells. 
Computational studies showing that in titanium-coated carbon nanotubes 
a single titanium atom can adsorb four hydrogen molecules opens new 
ways that the control of matter on the nanoscale can lead to the 
creation of novel materials for hydrogen storage. Recent work 
demonstrating that visible light can split carbon dioxide into carbon 
monoxide and a free oxygen atom, the critical first reaction in 
sunlight-driven transformation of carbon dioxide into methanol, makes 
it feasible to consider harnessing sunlight to drive the photocatalytic 
production of methanol from carbon dioxide. Demonstration of the effect 
known as carrier multiplication in which a single photon creates 
multiple charge carriers during the interaction of photons with a 
nanocrystalline sample could lead to substantial increases in solar 
cell conversion efficiency.
    Maintaining World-leading Research Tools for U.S. Science.--The 
Office of Science continues to construct and maintain powerful tools 
and research capabilities that will accelerate U.S. scientific 
discovery and innovation. The following highlight a few recent 
accomplishments. Construction and commissioning of the Spallation 
Neutron Source (SNS), an accelerator-based neutron source that will 
provide the most intense pulsed neutron beams in the world for 
scientific research and industrial development, was completed and began 
operations. Full operation of four of the five DOE Nanoscale Science 
Research Centers began in 2006, providing resources unmatched anywhere 
in the world for the synthesis, fabrication, and analysis of 
nanoparticles and nanomaterials. A nanofocusing lens device at the 
Advanced Photon Source at Argonne National Laboratory has set a world's 
record for line size resolution produced with a hard X-ray beam and 
enables such capabilities as three-dimensional visualization of 
electronic circuit boards, mapping impurities in biological and 
environmental samples, and analyzing samples inside high-pressure or 
high-temperature cells. A new record for performance, a 77 percent 
increase in peak luminosity in 2006 from the previous year, was 
achieved at the Tevatron, the world's most powerful particle collider 
for high energy physics research at Fermilab. Evidence of the rare 
single top quark was observed at Fermilab in 2006, bringing researchers 
a step closer to finding the Higgs boson. The Large Area Telescope 
(LAT), a DOE and NASA partnership and the primary instrument on NASA's 
GLAST mission, was completed in 2006 and will be placed in orbit in the 
fall of 2007 to study the high energy gamma rays and other 
astrophysical phenomena using particle physics detection techniques. 
During the 2006 operation of the Relativistic Heavy Ion Collider 
(RHIC), polarized protons were accelerated to the highest energies ever 
recorded--250 billion electron volts--for world-leading studies of the 
internal quark-gluon structure of nucleons.

                   PROGRAM OBJECTIVES AND PERFORMANCE

    The path from basic research to technology development and 
industrial competitiveness is not always obvious. History has taught us 
that seeking answers to fundamental questions can ultimately result in 
a diverse array of practical applications as well as some remarkable 
revolutionary advances. Working with the scientific community, the 
Office of Science invests in the promising research and sets long-term 
scientific goals with ambitious annual targets. The intent and impact 
of our performance goals may not always be clear to those outside the 
research community. Therefore the Office of Science has created a 
website (www.sc.doe.gov/measures) to better communicate to the public 
what we are measuring and why it is important.
    Further, the Office of Science has revised the appraisal process it 
uses each year to evaluate the scientific, management, and operational 
performance of the contractors who manage and operate each of its 10 
national laboratories. This new appraisal process went into effect for 
the fiscal year 2006 performance evaluation period and provides a 
common structure and scoring system across all 10 Office of Science 
laboratories. The performance-based approach focuses the evaluation of 
the contractor's performance against eight Performance Goals (three 
Science and Technology Goals and five Management and Operation Goals). 
Each goal is composed of two or more weighted objectives. The new 
process has also incorporated a standardized five-point (0-4.3) scoring 
system, with corresponding grades for each Performance Goal, creating a 
``Report Card'' for each laboratory.
    The fiscal year 2006 Office of Science laboratory report cards have 
been posted on the SC website (http://www.science.doe.gov/
News_Information/News_Room/2007/Appraisa_%20Process/index.htm).

                            SCIENCE PROGRAMS

Basic Energy Sciences
            Fiscal Year 2007 Request--$1,421.0 Million; Fiscal Year 
                    2008 Request--$1,498.5 Million
    Basic research supported by the Basic Energy Sciences (BES) program 
touches virtually every aspect of energy resources, production, 
conversion, efficiency, and waste mitigation. Research in materials 
sciences and engineering leads to the development of materials that may 
improve the efficiency, economy, environmental acceptability, and 
safety of energy generation, conversion, transmission, and use. 
Research in chemistry leads to the development of advances such as 
efficient combustion systems with reduced emission of pollutants; new 
solar photo-conversion processes; improved catalysts for the production 
of fuels and chemicals; and better separations and analytical methods 
for applications in energy processes, environmental remediation, and 
waste management. Research in geosciences contributes to the solution 
of problems in multiple DOE mission areas, including reactive fluid 
flow studies to understand contaminant remediation and seismic imaging 
for reservoir definition. Research in the molecular and biochemical 
nature of photosynthesis aids the development of solar photo-energy 
conversion and biomass conversion methods. BES asks researchers to 
reach far beyond today's problems in order to provide the basis for 
long-term solutions to what is one of society's greatest challenges--a 
secure, abundant, and clean energy supply. In fiscal year 2008, the 
Office of Science will support expanded efforts in basic research 
related to transformational energy technologies. Within BES, there are 
increases to ongoing basic research for the hydrogen economy and 
effective solar energy utilization. The fiscal year 2008 budget request 
also supports increased research in electric-energy storage, 
accelerator physics, and X-ray and neutron detector research.
    BES also provides the Nation's researchers with world-class 
research facilities, including reactor- and accelerator-based neutron 
sources, light sources (soon to include an X-ray free electron laser), 
nanoscale science research centers, and electron beam micro-
characterization centers. These facilities provide outstanding 
capabilities for imaging and characterizing materials of all kinds from 
metals, alloys, and ceramics to fragile biological samples. The next 
steps in the characterization and the ultimate control of materials 
properties and chemical reactivity are to improve spatial resolution of 
imaging techniques; to enable a wide variety of samples, sample sizes, 
and sample environments to be used in imaging experiments; and to make 
measurements on very short time scales, comparable to the time of a 
chemical reaction or the formation of a chemical bond. With these 
tools, we will be able to understand how the composition of materials 
affects their properties, to watch proteins fold, to see chemical 
reactions, and to understand and observe the nature of the chemical 
bond. For fiscal year 2008, BES scientific user facilities will be 
scheduled to operate at an optimal number of hours.
    Construction of the Spallation Neutron Source (SNS) was completed 
in fiscal year 2006 ahead of schedule, under budget, and meeting all 
technical milestones. In fiscal year 2008 fabrication and commissioning 
of SNS instruments will continue, funded by BES and other sources 
including non-DOE sources, and will continue to increase power towards 
full levels. Two Major Items of Equipment are funded in fiscal year 
2008 that will allow the fabrication of approximately nine to ten 
additional instruments for the SNS, thus nearly completing the initial 
suite of 24 instruments that can be accommodated in the high-power 
target station.
    All five Nanoscale Science Research Centers will be fully 
operational in fiscal year 2008: the Center for Nanophase Materials 
Sciences at Oak Ridge National Laboratory, the Molecular Foundry at 
Lawrence Berkeley National Laboratory, the Center for Nanoscale 
Materials at Argonne National Laboratory, the Center for Integrated 
Nanotechnologies at Sandia National Laboratories and Los Alamos 
National Laboratory, and the Center for Functional Nanomaterials at 
Brookhaven National Laboratory. In fiscal year 2008, funding for 
research at the nanoscale increases for activities related to the 
hydrogen economy and solar energy utilization.
    The Linac Coherent Light Source (LCLS) at the Stanford Linear 
Accelerator Center (SLAC) will continue construction at the planned 
levels in fiscal year 2008. Funding is also provided for primary 
support of the operation of the SLAC linac. This marks the third year 
of the transition of linac funding from the High Energy Physics program 
to the Basic Energy Sciences program. The purpose of the LCLS Project 
is to provide laser-like radiation in the X-ray region of the spectrum 
that is 10 billion times greater in peak power and peak brightness than 
any existing coherent X-ray light source and that has pulse lengths 
measured in femtoseconds--the timescale of electronic and atomic 
motions. The LCLS will be the first such facility in the world for 
groundbreaking research in the physical and life sciences. Funding is 
provided separately for design and fabrication of instruments for the 
facility. Project Engineering and Design (PED) and construction for the 
Photon Ultrafast Laser Science and Engineering (PULSE) building 
renovation begins in fiscal year 2008. PULSE is a new center for 
ultrafast science at SLAC focusing on ultrafast structural and 
electronic dynamics in materials sciences, the generation of attosecond 
laser pulses, single-molecule imaging, and understanding solar energy 
conversion in molecular systems. Support continues for PED and R&D for 
the National Synchrotron Light Source-II (NSLS-II), which would be a 
new synchrotron light source, highly optimized to deliver ultra-high 
brightness and flux and exceptional beam stability. This would enable 
the study of material properties and functions with a spatial 
resolution of one nanometer (nm), an energy resolution of 0.1 
millielectron volt (meV), and the ultra-high sensitivity required to 
perform spectroscopy on a single atom, achieving a level of detail and 
precision never possible before. NSLS-II would open new regimes of 
scientific discovery and investigation.
    The Scientific Discovery through Advanced Computing (SciDAC) 
program is a set of coordinated investments across all Office of 
Science mission areas with the goal of using computer simulation to 
achieve breakthrough scientific advances that are impossible using 
theoretical or laboratory studies alone. The SciDAC program in BES 
consists of two activities: (1) characterizing chemically reacting 
flows as exemplified by combustion and (2) achieving scalability in the 
first-principles calculation of molecular properties, including 
chemical reaction rates.

Advanced Scientific Computing Research
            Fiscal Year 2007 Request--$318.7 Million; Fiscal Year 2008 
                    Request--$340.2 Million
    The Advanced Scientific Computing Research (ASCR) program is 
expanding the capability of world-class scientific research through 
advances in mathematics, high performance computing and advanced 
networks, and through the application of computers capable of many 
trillions of operations per second (terascale to petascale computers). 
Computer-based simulation can enable us to understand and predict the 
behavior of complex systems that are beyond the reach of our most 
powerful experimental probes or our most sophisticated theories. 
Computational modeling has greatly advanced our understanding of 
fundamental processes of nature, such as fluid flow and turbulence or 
molecular structure and reactivity. Soon, through modeling and 
simulation, we will be able to explore the interior of stars to 
understand how the chemical elements were created and learn how protein 
machines work inside living cells to enable the design of microbes that 
address critical energy or waste cleanup needs. We could also design 
novel catalysts and high-efficiency engines that expand our economy, 
lower pollution, and reduce our dependence on foreign oil. 
Computational science is increasingly important to making progress at 
the frontiers of almost every scientific discipline and to our most 
challenging feats of engineering. Leadership in scientific computing 
has become a cornerstone of the Department's strategy to ensure the 
security of the Nation and success in its science, energy, 
environmental quality, and national security missions.
    The demands of today's facilities, which generate millions of 
gigabytes of data per year, now outstrip the capabilities of the 
current Internet design and push the state-of-the-art in data storage 
and utilization. But, the evolution of the telecommunications market, 
including the availability of direct access to optical fiber at 
attractive prices and the availability of flexible dense wave division 
multiplexing (DWDM) products gives SC the possibility of exploiting 
these technologies to provide scientific data where needed at speeds 
commensurate with the new data volumes. To take advantage of this 
opportunity, the Energy Science Network (ESnet) has entered into a long 
term partnership with Internet 2 to build the next generation optical 
network infrastructure needed for U.S. science. To fully realize the 
potential for science, however, significant research is needed to 
integrate these capabilities, make them available to scientists, and 
build the infrastructure which can provide cybersecurity. ASCR is 
leading an interagency effort to develop a Federal Plan for Advanced 
Networking R&D. This plan will provide a strategy for addressing 
current and future networking needs of the Federal Government in 
support of science and national security missions and provide a process 
for developing a more detailed roadmap to guide future multi-agency 
investments in advancing networking R&D.
    ASCR supports core research in applied mathematics, computer 
sciences, and distributed network environments. The applied mathematics 
research activity produces fundamental mathematical methods to model 
complex physical and biological systems. The computer science research 
efforts enable scientists to perform scientific computations 
efficiently on the highest performance computers available and to 
store, manage, analyze, and visualize the massive amounts of data that 
result. The networking research activity provides the techniques to 
link the data producers with scientists who need access to the data. 
Results from enabling research supported by ASCR are used by scientists 
supported by other SC programs. This link to other DOE programs 
provides a tangible assessment of the value of ASCR's core research 
program for advancing scientific discovery and technology development 
through simulations. In fiscal year 2008 expanded efforts in applied 
mathematics will support critical long-term mathematical research 
issues relevant to petascale science, multiscale mathematics, and 
optimized control and risk analysis in complex systems. Expanded 
efforts in computer science will enable scientific applications to take 
full advantage of petascale computing systems at the Leadership 
Computing Facilities.
    In addition to its research activities, ASCR plans, develops, and 
operates supercomputer and network facilities that are available 24 
hours a day, 365 days a year to researchers working on problems 
relevant to DOE's scientific missions. Investments in the ESnet will 
provide the DOE science community with capabilities not available 
through commercial networks or the commercial internet to manage 
increased data flows from petascale computers and experimental 
facilities. In fiscal year 2008 ESnet will deliver a 10 gigabit per 
second (gbps) core Internet service as well as a Science Data Network 
with 20 gbps on its northern route and 10 gbps on its southern route. 
Delivery of the next generation of high performance resources at the 
National Energy Research Scientific Computing Center (NERSC) is 
scheduled for fiscal year 2007. This NERSC-5 system is expected to 
provide 100-150 teraflops of peak computing capacity. The NERSC 
computational resources are integrated by a common high performance 
file storage system that enables users to use all machines easily. 
Therefore the new machine will significantly reduce the current 
oversubscription at NERSC which serves nearly 2,000 scientists 
annually.
    In fiscal year 2008, the Oak Ridge National Laboratory (ORNL) 
Leadership Computing Facility (LCF) will continue to provide world 
leading high performance sustained capability to researchers through 
the Innovative and Novel Computational Impact on Theory and Experiment 
(INCITE) program. The acquisition of a 250 teraflop Cray Baker system 
by the end of fiscal year 2008 will enable further scientific 
advancements in areas such as combustion simulation for clean coal 
research, simulation of fusion devices that approach ITER scale, and 
quantum calculations of complex chemical reactions. In addition, 
further diversity with the LCF resources will be realized with an 
acquisition by Argonne National Laboratory (ANL) of a high performance 
IBM Blue Gene/P with low-electrical power requirements and a peak 
capability of up to 100 teraflops in 2007, and further expansion to 
250-500 teraflops in fiscal year 2008 will bring enhanced capability to 
accelerate scientific understanding in areas such as molecular 
dynamics, catalysis, protein/DNA complexes, and aging of material. With 
the ORNL and ANL LCF facilities SC is developing a multiple set of 
computer architectures to enable the most efficient solution of 
critical problems across the spectrum of science, ranging from biology 
to physics and chemistry.
    The Scientific Discovery through Advanced Computing (SciDAC) 
program is a set of coordinated investments across all SC mission areas 
with the goal of using computer simulation and advanced networking 
technologies to achieve breakthrough scientific advances via that are 
impossible using theoretical or laboratory studies alone. In fiscal 
year 2006 ASCR recompeted its SciDAC portfolio, with the exception of 
activities in partnership with the Fusion Energy Sciences program that 
were initiated in fiscal year 2005. The new portfolio, referred to as 
SciDAC-2, enables new areas of science through Scientific Application 
Partnerships; Centers for Enabling Technologies (CET) at universities 
and national laboratories; and University-led SciDAC Institutes to 
establish centers of excellence that complement the activities of the 
CETs and provide training for the next generation of computational 
scientists.
    Advancing high performance computing and computation is a highly 
coordinated interagency effort. ASCR has extensive partnerships with 
other Federal agencies and the National Nuclear Security Administration 
(NNSA). Activities are coordinated with other Federal efforts through 
the Networking and Information Technology R&D (NITR&D) subcommittee of 
the National Science and Technology Council Committee on Technology. 
The subcommittee coordinates planning, budgeting, and assessment 
activities of the multi-agency NITR&D enterprise. DOE has been an 
active participant in these coordination groups and committees since 
their inception. ASCR will continue to coordinate its activities 
through these mechanisms and will lead the development of new 
coordinating mechanisms as needs arise such as the ongoing development 
of a Federal Plan for Advanced Networking R&D.

Biological and Environmental Research
            Fiscal Year 2007 Request--$510.3 Million; Fiscal Year 2008 
                    Request--$531.9 Million
    Biological and Environmental Research (BER) supports basic research 
with broad impacts on our energy future, our environment, and our 
health. By understanding complex biological systems, developing 
computational tools to model and predict their behavior, and developing 
methods to harness nature's capabilities, biotechnology solutions are 
possible for DOE energy, environmental, and national security 
challenges. An ability to predict long-range and regional climate 
enables effective planning for future needs in energy, agriculture, and 
land and water use. Understanding the global carbon cycle and the 
associated role and capabilities of microbes and plants can lead to 
solutions for reducing carbon dioxide concentrations in the atmosphere. 
Understanding the complex role of biology, geochemistry, and hydrology 
beneath the Earth's surface will lead to improved decision making and 
solutions for contaminated DOE weapons sites. Understanding the 
biological effects of low doses of radiation can lead to the 
development of science-based health risk policy to better protect 
workers and citizens. Both normal and abnormal physiological 
processes--from normal human development to cancer to brain function--
can be understood and improved using radiotracers, advanced imaging 
instruments, and novel biomedical devices.
    The fiscal year 2008 BER request continues expansion of the 
Genomics: GTL program. This program employs a systems approach to 
biology at the interface of the biological, physical, and computational 
sciences to determine the diverse biochemical capabilities of microbes, 
microbial communities, and plants, with the goal of tailoring and 
translating those capabilities into solutions for DOE mission needs. In 
fiscal year 2005 BER engaged a committee of the National Research 
Council (NRC) of the National Academies to review the design of the 
Genomics: GTL program and its infrastructure plan. The NRC committee 
report, Review of the Department of Energy's Genomics: GTL Program was 
released in fiscal year 2006 and provided a strong endorsement of the 
GTL program, recommending that the program's focus on systems biology 
for bioenergy, carbon sequestration, and bioremediation be given a 
``high priority'' by DOE and the Nation. The report also recommended 
that the program's plan for new research facilities be reshaped to 
produce earlier and more cost-effective results by focusing not on 
particular technologies, but on research underpinning particular 
applications such as bioenergy, carbon sequestration, or environmental 
remediation.
    In response, SC revised its original single-purpose user facilities 
plan to instead develop and support vertically-integrated GTL Research 
Centers to accelerate systems biology research. BER will support the 
development of three Bioenergy Research Centers to be selected and 
initiated in fiscal year 2007, and fully operational by the end of 
2008. All three centers will conduct comprehensive, multidisciplinary 
research programs focused on microbes and plants to drive scientific 
breakthroughs necessary for the development of cost-effective biofuels 
and bioenergy production. These centers will not only possess the 
robust scientific capabilities needed to carry out their broad mission 
mandates, but will also draw upon the broader GTL program for 
technology development and foundational research. The vertically-
integrated GTL Research Centers will not require construction of 
facilities. Moreover, the competition to establish and operate them is 
open to universities, non-profit research organizations, the national 
laboratories, and the private sector--an approach that is new for the 
Department. The first three research centers will focus on bioenergy 
research. The Department announced the solicitation for Bioenergy 
Research Centers in August 2006, and proposals were due on February 1, 
2007.
    Development of a global biotechnology based energy infrastructure 
requires a science base that will enable scientists to control or 
redirect genetic regulation and redesign specific proteins, biochemical 
pathways, and even entire plants or microbes. Renewable biofuels could 
be produced using plants, microbes, or isolated enzymes. Understanding 
the biological mechanisms involved in these energy producing processes 
will allow scientists and technologists to design novel biofuel 
production strategies involving both cellular and cell free systems 
that might include defined mixed microbial communities or consolidated 
biological processes. Within the Genomics: GTL program, BER supports 
basic research aimed at developing the understanding needed to advance 
biotechnology-based strategies for biofuel production, focusing on 
renewable, carbon-neutral energy compounds like ethanol and hydrogen, 
as well as understanding how the capabilities of microbes can be 
applied to environmental remediation and carbon sequestration.
    In 2003, the administration launched the Climate Change Research 
Initiative (CCRI) to focus research on areas where substantial progress 
in understanding and predicting climate change, including its potential 
causes and consequences, is possible over the next 5 years. In fiscal 
year 2008, BER will contribute to the CCRI by focusing on (1) helping 
to resolve the North American carbon sink question (i.e., the magnitude 
and location of the North American carbon sink); (2) deployment and 
operation of a mobile ARM facility to provide data on the effects of 
clouds and aerosols on the atmospheric radiation budget in regions and 
locations of opportunity where data are lacking or sparse; (3) using 
advanced climate models to simulate potential effects of natural and 
human-induced climate forcing on global and regional climate and the 
potential effects on climate of alternative options for mitigating 
increases in human forcing of climate, including abrupt climate change; 
and (4) developing and evaluating assessment tools needed to study 
costs and benefits of potential strategies for reducing net carbon 
dioxide emissions.
    In fiscal year 2008, BER will continue to support research aimed at 
advancing the science of climate and Earth system modeling by coupling 
models of different components of the earth system related to climate 
and by significantly increasing the spatial resolution of such models. 
SciDAC-enabled activities will allow climate scientists to gain 
unprecedented insights into interactions and feedbacks between, for 
example, climate change and global cycling of carbon, the potential 
effects of carbon dioxide and aerosol emissions from energy production 
and their impact on the global climate system. BER will also add a 
SciDAC component to GTL and Environmental Remediation research. GTL 
SciDAC will initiate new research to develop mathematical and 
computational tools needed for complex biological system modeling and 
for analysis of complex data sets, such as mass spectrometry 
metabolomic or proteomic profiling data. Environmental Remediation 
SciDAC will provide an opportunity for subsurface and computational 
scientists to develop and improve methods of simulating subsurface 
reactive transport processes on ``discovery class'' computers.
    Research emphasis within BER's Environmental Remediation Sciences 
subprogram will focus on issues of subsurface cleanup such as defining 
and understanding the processes that control contaminant fate and 
transport in the environment and providing opportunities for use or 
manipulation of natural processes to alter contaminant mobility. In 
fiscal year 2008, BER will support the development of two additional 
field research sites (for a total of 3), providing opportunities to 
validate laboratory findings under field conditions. The resulting 
knowledge and technology will assist DOE's environmental clean-up and 
stewardship missions. Funding for the William R. Wiley Environmental 
Molecular Sciences Laboratory (EMSL) at Pacific Northwest National 
Laboratory (PNNL) will be increased in fiscal year 2008 to maintain 
operations at full capacity.
    Also continuing in fiscal year 2008 is BER support for fundamental 
research in genomics, medical applications and measurement science, and 
the health effects of low dose radiation in fiscal year 2008. Resources 
are developed and made widely available for determining protein 
structures at DOE synchrotrons, and for DOE-relevant high-throughput 
genomic DNA sequencing. Building on DOE capabilities in physics, 
chemistry, engineering, biology and computation, BER supports 
fundamental imaging research, maintains core infrastructure for imaging 
research and develops new technologies to improve the diagnosis and 
treatment of psycho-neurological diseases and cancer and to improve the 
function of patients with neurological disabilities like blindness. 
Funding for Ethical, Legal, and Societal Issues (ELSI) associated with 
activities applicable to SC, increases to support research on the 
ecological and environmental impacts of nanoparticles resulting from 
nanotechnology applied to energy technologies.

High Energy Physics
            Fiscal Year 2007 Request--$775.1 Million; Fiscal Year 2008 
                    Request--$782.2 Million
    The High Energy Physics (HEP) program provides over 90 percent of 
the Federal support for the Nation's high energy physics research. This 
research advances our understanding of the basic constituents of 
matter, deeper symmetries in the laws of nature at high energies, and 
mysterious phenomena that are commonplace in the universe, such as dark 
energy and dark matter. Research at these frontiers of science may 
uncover new particles, forces, or undiscovered dimensions of space and 
time; explain how matter came to have mass; and reveal the underlying 
nature of the universe. HEP supports particle accelerators and very 
sensitive detectors to study fundamental particle interactions at the 
highest possible energies as well as non-accelerator studies of cosmic 
particles using experiments conducted deep underground, on mountains, 
or in space. These research facilities and basic research supported by 
HEP advance our knowledge not only in high energy physics, but 
increasingly in other fields was well, including particle astrophysics 
and cosmology. Research advances in one field often have a strong 
impact on research directions in another. Technology that was developed 
in response to the pace-setting demands of high energy physics research 
has also become indispensable to other fields of science and has found 
wide applications in industry and medicine, often in ways that could 
not have been predicted when the technology was first developed.
    In fiscal year 2008 HEP supports core experimental and theoretical 
research to maintain strong participation in the Tevatron, Large Hadron 
Collider (LHC) at CERN (the European Organization for Nuclear 
Research), and B-factory physics program, and supports research 
activities associated with development of potential new initiatives 
such as International Linear Collider (ILC) R&D, neutrinos, dark 
energy, and dark matter. HEP places a high priority on maximizing 
scientific data derived from the three major HEP user facilities: the 
Tevatron Collider and Neutrinos at the Main Injector (NuMI) beam line 
at Fermilab, and the B-factory at SLAC. HEP will continue to lead the 
international scientific community with these world-leading user 
facilities at Fermilab and SLAC in fiscal year 2008, but these 
facilities will complete their scientific missions by the end of the 
decade. Thus, the longer-term HEP program supported in fiscal year 2008 
begins to develop new cutting-edge facilities in targeted areas (such 
as neutrino physics) that will establish U.S. leadership in these areas 
in the next decade, when the centerpiece of the world HEP program will 
reside at CERN.
    In fiscal year 2008 HEP continues to support software and computing 
resources for U.S. researchers participating in the LHC program at CERN 
as well as pre-operations and maintenance of the U.S.-built systems 
that are scientific components of the LHC detectors. R&D in support of 
the proposed ILC is maintained in fiscal year 2008 to support U.S. 
participation in a comprehensive, coordinated international R&D program 
and to provide a basis for U.S. industry to compete successfully for 
major subsystem contracts, should the ILC be designed and then built. 
The long-term goal of this effort is to provide robust cost and 
schedule baselines to support design and construction decisions for an 
international electron-positron linear collider. The ILC would provide 
unprecedented power, clarity, and precision to unravel the mysteries of 
the next energy frontier, which we will just begin to discover with the 
LHC. In 2006 the ILC Reference Design Report was completed, and in 
fiscal year 2007 further work toward the design, including some site-
specific studies and detector studies, will be performed. In fiscal 
year 2008 further work on both accelerator systems and detector studies 
will be performed.
    To provide a nearer-term future HEP program, and to preserve future 
research options, R&D for accelerator and detector technologies, 
particularly in the growing area of neutrino physics, will continue in 
fiscal year 2008. With Tevatron improvements completed, much of the 
accelerator development effort at Fermilab in fiscal year 2008 will 
focus on the neutrino program to study the universe's most prolific 
particle. The Neutrinos at the Main Injector (NuMI) beam allows studies 
of the fundamental physics of neutrino masses and mixings using the 
proton source section of the Tevatron complex. The NuMI beam has begun 
operations and will eventually put much higher demands on that set of 
accelerators. A program of enhanced maintenance, operational 
improvements, and equipment upgrades is being developed to meet these 
higher demands, while continuing to run the Tevatron. Fabrication of 
the NuMI Off-axis Neutrino Appearance (NOnA) Detector, which was 
originally proposed as a line item construction project in fiscal year 
2007 under the generic name of Electron Neutrino Appearance (EnA) 
Detector, is funded in fiscal year 2008 and will utilize the NuMI beam. 
This project includes improvements to the proton source to increase the 
intensity of the NuMI beam. Meanwhile, fabrication will begin for the 
Reactor Neutrino Detector and two small neutrino experiments, the Main 
Injector Experiment n-A (MINERnA) in the MINOS near detector hall at 
Fermilab and the Tokai-to-Kamioka (T2K) experiment using the Japanese 
J-PARC neutrino beam. R&D will continue for a large double beta decay 
experiment to measure the mass of a neutrino. These efforts are part of 
a coordinated neutrino program developed from an American Physical 
Society study and a joint HEPAP/Nuclear Sciences Advisory Committee 
(NSAC) subpanel review.
    To exploit the unique opportunity to expand the boundaries of our 
understanding of the matter-antimatter asymmetry in the universe, a 
high priority is given to continued operations and infrastructure 
support for the B-factory at SLAC. Final upgrades to the accelerator 
and detector are scheduled for completion in fiscal year 2007, and B-
factory operations will conclude in fiscal year 2008. HEP support of 
SLAC operations decreases in fiscal year 2008 as the contribution from 
BES increases for SLAC linac operations in preparation for the Linac 
Coherent Light Source (LCLS).
    As the Large Hadron Collider (LHC) accelerator nears its turn-on 
date in 2007, U.S. activities related to fabrication of detector 
components will be completed and new activities related to 
commissioning and pre-operations of these detectors, along with 
software and computing activities needed to analyze the data, will 
ramp-up significantly. Support of an effective role for U.S. research 
groups in LHC discoveries will continue to be a high priority of the 
HEP program. R&D for possible future upgrades to the LHC accelerator 
and detectors will also be pursued.
    Enhanced support for R&D on ground- and space-based dark energy 
experimental concepts, begun in fiscal year 2007, will be continued in 
fiscal year 2008. These experiments should provide important new 
information about the nature of dark energy, leading to a better 
understanding of the birth, evolution, and ultimate fate of the 
universe. For example, the Super Nova/Acceleration Probe (SNAP) will be 
a mission concept proposed for a potential interagency-sponsored 
experiment with NASA, and possibly international partners: the Joint 
Dark Energy Mission (JDEM). DOE and NASA are jointly funding a National 
Academy of Sciences study to determine which of the proposed NASA 
``Beyond Einstein'' missions should launch first, with technical design 
of the selected proposal to begin at the end of this decade. JDEM is 
one of the candidate missions in this study. In fiscal year 2008, 
fabrication for the Dark Energy Survey Project will begin.
    The HEP program re-competed its SciDAC portfolio in fiscal year 
2006. Major thrusts in theoretical physics, astrophysics, and particle 
physics grid technology will be supported through the SciDAC program in 
fiscal year 2008, as well as proposals in accelerator modeling and 
design to be selected in fiscal year 2007. These projects will allow 
HEP to use computational science to obtain significant new insights 
into challenging problems that have the greatest impact in HEP mission 
areas.

Nuclear Physics
            Fiscal Year 2007 Request--$454.1 Million; Fiscal Year 2008 
                    Request--$471.3 Million
    The Nuclear Physics (NP) program is the major sponsor of 
fundamental nuclear physics research in the Nation, providing about 90 
percent of Federal support. Scientific research supported by NP is 
aimed at advancing knowledge and providing insights into the nature of 
energy and matter and, in particular, at investigating the fundamental 
forces which hold the nucleus together and determining the detailed 
structure and behavior of the atomic nuclei. NP builds and supports 
world-leading scientific facilities and state-of-the-art 
instrumentation to carry out its basic research agenda--the study of 
the evolution and structure of nuclear matter from the smallest 
building blocks, quarks and gluons, to the stable elements in the 
universe created by stars, to unique isotopes created in the laboratory 
that exist at the limits of stability and possess radically different 
properties from known matter. NP also trains a workforce needed to 
underpin the Department's missions for nuclear-related national 
security, energy, and environmental quality.
    Key aspects of NP research agenda include understanding how the 
quarks and gluons combine to form the nucleons (proton and neutron), 
what the properties and behavior of nuclear matter are under extreme 
conditions of temperature and pressure, and what the properties and 
reaction rates are for atomic nuclei up to their limits of stability. 
Results and insight from these studies are relevant to understanding 
how the universe evolved in its earliest moments, how the chemical 
elements were formed, and how the properties of one of nature's basic 
constituents, the neutrino, influences astrophysics phenomena such as 
supernovae. Knowledge and techniques developed in pursuit of 
fundamental nuclear physics research are also extensively utilized in 
our society today. The understanding of nuclear spin enabled the 
development of magnetic resonance imaging for medical use. Radioactive 
isotopes produced by accelerators and reactors are used for medical 
imaging, cancer therapy, and biochemical studies. Advances in cutting-
edge instrumentation developed for nuclear physics experiments have 
relevance to technological needs in combating terrorism. The highly 
trained scientific and technical personnel in fundamental nuclear 
physics who are a product of the program are a valuable human resource 
for many applied fields.
    The fiscal year 2008 budget request supports operations of the four 
National User Facilities and research at universities and laboratories, 
and makes investments in new capabilities to address compelling 
scientific opportunities and to maintain U.S. competitiveness in global 
nuclear physics efforts. In fiscal year 2008 support continues for R&D 
on rare isotope beam development, relevant to the next-generation 
facilities that will provide capabilities for forefront nuclear 
structure and astrophysics studies and for understanding the origin of 
the elements from iron to uranium.
    When the universe was a millionth of a second old, nuclear matter 
is believed to have existed in its most extreme energy density form 
called the quark-gluon plasma. Experiments at the Relativistic Heavy 
Ion Collider (RHIC) at Brookhaven National Laboratory (BNL) are 
searching to find and characterize this new state and others that may 
have existed during the first moments of the universe. These efforts 
will continue in fiscal year 2008. The NP program, together with the 
National Aeronautics and Space Administration (NASA), will continue 
construction of a new Electron Beam Ion Source (EBIS) to provide RHIC 
with more cost-effective, reliable, and versatile operations. Research 
and development activities, including the development of an innovative 
electron beam cooling system for RHIC, are expected to demonstrate the 
feasibility of increasing the luminosity (or collision rate) of the 
circulating beams by a factor of 10, which would increase the long-term 
scientific productivity and international competitiveness of the 
facility. Support for participation in the heavy ion program at the 
Large Hadron Collider (LHC) at CERN allows U.S. researchers the 
opportunity to search for new states of matter under substantially 
different initial conditions than those provided at RHIC. The interplay 
of the different research programs at the LHC and the ongoing RHIC 
program will allow a detailed tomography of the hot, dense matter as it 
evolves from the ``perfect fluid'' (a fluid with zero viscosity) 
discovered at RHIC.
    Operations of the Continuous Electron Beam Accelerator Facility 
(CEBAF) at Thomas Jefferson National Accelerator Facility (TJNAF) in 
fiscal year 2008 will continue to advance our knowledge of the internal 
structure of protons and neutrons. By providing precision experimental 
information concerning the quarks and gluons that form protons and 
neutrons, the approximately 1,200 experimental researchers who use 
CEBAF, together with researchers in nuclear theory, seek to provide a 
quantitative description of nuclear matter in terms of the fundamental 
theory of the strong interaction, Quantum Chromodynamics (QCD). In 
fiscal year 2008, the accelerator will provide beams simultaneously to 
all three experimental halls and funding is provided for engineering 
design activities for the 12 GeV CEBAF Upgrade Project. This upgrade is 
one of the highest priorities for NP and would allow for a test of a 
proposed mechanism of ``quark confinement,'' one of the compelling, 
unanswered puzzles of physics.
    Efforts at the Argonne Tandem Linear Accelerator System (ATLAS) at 
ANL and the Holifield Radioactive Ion Beam Facility (HRIBF) at ORNL 
will be supported in fiscal year 2008 to focus on investigating new 
regions of nuclear structure, studying interactions in nuclear matter 
like those occurring in neutron stars, and determining the reactions 
that created the nuclei of the chemical elements inside stars and 
supernovae. The GRETINA gamma-ray tracking array, which continues 
fabrication in fiscal year 2008, will revolutionize gamma ray detection 
technology and offer dramatically improved capabilities to study the 
structure of nuclei at ATLAS, HRIBF, and elsewhere. The Fundamental 
Neutron Physics Beamline (FNPB) under fabrication at the SNS will 
provide a world-class capability to study the fundamental properties of 
the neutron, leading to a refined characterization of the weak force. 
Support continues in fiscal year 2008 for the fabrication of a neutron 
Electric Dipole Moment experiment, to be sited at the FNPB, in the 
search for new physics beyond the Standard Model.
    Funds are provided in fiscal year 2008 to initiate U.S. 
participation in the fabrication of an Italian-led neutrino-less double 
beta decay experiment, the Cryogenic Underground Observatory for Rare 
Events (CUORE). A successful search for neutrino-less beta decay will 
determine if the neutrino is its own antiparticle and provide 
information about the mass of the neutrino. Neutrinos are thought to 
play a critical role in the explosions of supernovae and the evolution 
of the cosmos. A successful search for neutrino-less beta decay will 
determine if the neutrino is its own antiparticle and provide 
information about the mass of the neutrino.
    Following the re-competition of SciDAC projects in fiscal year 
2006, NP currently supports efforts in nuclear astrophysics, grid 
computing, Lattice Gauge (QCD) theory, and low energy nuclear structure 
and nuclear reaction theory. NP is also supporting R&D in an 
international effort to develop a larger, more sensitive neutrino-less 
beta decay experiment.

Fusion Energy Sciences
            Fiscal Year 2007 Request--$319.0 Million; Fiscal Year 2008 
                    Request--$427.9 Million
    The Fusion Energy Sciences (FES) program advances the theoretical 
and experimental understanding of plasma and fusion science, including 
a close collaboration with international partners in identifying and 
exploring plasma and fusion physics issues through specialized 
facilities. The FES program supports research in plasma science, 
magnetically confined plasmas, advances in tokamak design, innovative 
confinement options, non-neutral plasma physics and high energy density 
laboratory plasmas (HEDLP), and cutting edge technologies. FES also 
leads U.S. participation in ITER, an experiment to study and 
demonstrate the sustained burning of fusion fuel. This international 
collaboration will provide an unparalleled scientific research 
opportunity with a goal of demonstrating the scientific and technical 
feasibility of fusion power. Fusion is the energy source that powers 
the sun and stars. Fusion power could play a key role in U.S. long-term 
energy plans and independence because it offers the potential for 
plentiful, safe, and environmentally benign energy. On November 21, 
2006, the DOE signed the ITER agreement with its counterparts in China, 
the European Union, India, Japan, the Republic of Korea and the Russian 
Federation, formalizing this historic arrangement for international 
scientific cooperation.
    The U.S. Contributions to ITER project is being managed by the U.S. 
ITER Project Office (USIPO), established as an Oak Ridge National 
Laboratory (ORNL)/Princeton Plasma Physics Laboratory (PPPL) 
partnership. The fiscal year 2008 request for the U.S. Contributions to 
ITER project reflects a significant increase in procurement, 
fabrication activities, and delivery of medium- and high-technology 
components, assignment of U.S. personnel to the International ITER 
Organization abroad, and the U.S. share of common costs at the ITER 
site in Cadarache, France, including installation and testing. These 
costs are part of the Total Estimated Cost (TEC) for the U.S. 
Contributions to ITER project. There is a second category of costs, 
Other Project Costs (OPC), which is for the supporting research and 
development activity for our U.S. Contributions. Together the TEC and 
OPC make up the overall Total Project Cost which is $1,122,000,000.
    In support of ITER and U.S. Contributions to ITER, FES has placed 
an increased emphasis on its national burning plasma program--a 
critical underpinning to the fusion science in ITER. FES has enhanced 
burning plasma research efforts across the U.S. domestic fusion 
program, including: carrying out experiments on our national FES 
facilities that are exploring new modes of improved or extended ITER 
performance with diagnostics and plasma control that can also be 
extrapolated to ITER; developing safe and environmentally attractive 
technologies that could be used in future upgrades of ITER; exploring 
fusion simulation efforts that examine the complex behavior of burning 
plasmas in tokamaks; and integrating all that is learned into a 
forward-looking approach to future fusion applications. The U.S. 
Burning Plasma Organization has been established to coordinate these 
efforts.
    Section 972(c)(5)(C) of the Energy Policy Act (EPAct) of 2005, 
required the Secretary of Energy to provide ``a report describing how 
United States participation in the ITER will be funded without reducing 
funding for other programs in the Office of Science (including other 
fusion programs) . . .''. This report as well as all the other 
requirements for FES in EPAct have been or are in the process of being 
completed. The Department's fiscal year 2008 budget provides for modest 
increases for all programs within the Office of Science and supports 
the ITER request of $160,000,000 from new funds in the FES budget 
request.
    FES supports the operation of a set of experimental facilities. 
These facilities provide scientists with the means to test and extend 
our theoretical understanding and computer models--leading ultimately 
to improved predictive capabilities for fusion science. Research and 
facility operations support for the three major facilities is 
maintained in fiscal year 2008. Experimental research on tokamaks is 
continued with emphasis on physics issues of interest to the ITER 
project. The DIII-D tokamak at General Atomics will operate for 15 
weeks in fiscal year 2008 to conduct research relevant to burning 
plasma issues and topics of interest to the ITER project as well as 
maintain the broad scientific scope of the program. The Alcator C-Mod 
at the Massachusetts Institute of Technology will operate for 15 weeks 
and the National Spherical Torus Experiment (NSTX) at the Princeton 
Plasma Physics Laboratory (PPPL) will operate for 12 weeks. Fabrication 
of the major components of the National Compact Stellarator Experiment 
(NCSX) at PPPL continues and assembly of the entire device will be 
completed in fiscal year 2009.
    Funding for the FES SciDAC program continues in fiscal year 2008 
for the development of tools that facilitate international fusion 
collaborations and initiate development of an integrated software 
environment that can accommodate the wide range of space and time 
scales and the multiple phenomena that are encountered in simulations 
of fusion systems. Within SciDAC, the Fusion Simulation Project is a 
major initiative involving plasma physicists, applied mathematicians, 
and computer scientists to create a comprehensive set of models of 
fusion systems, combined with the algorithms required to implement the 
models and the computational infrastructure to enable them to work 
together.
    FES will issue a joint solicitation in fiscal year 2008, with the 
National Nuclear Security Administration (NNSA), focused on academic 
research in high energy density laboratory plasmas, which supports the 
Department's programmatic goals in inertial confinement fusion science.

Workforce Development for Teachers and Scientists
            Fiscal Year 2007 Request--$10.9 Million; Fiscal Year 2008 
                    Request--$11.0 Million
    The Department of Energy has played a role in training America's 
scientists and engineers for more than 50 years, making contributions 
to U.S. economic and scientific pre-eminence. The Nation's current and 
future energy and environmental challenges may be solved in part 
through scientific and technological innovation and a highly skilled 
scientific and technical workforce. The Workforce Development for 
Teachers and Scientists (WDTS) program acts as a catalyst within the 
DOE for the training of the next generation of scientists. WDTS 
programs create a foundation for DOE's national laboratories to provide 
a wide range of educational opportunities to more than 280,000 
educators and students on an annual basis. WDTS's mission is to provide 
a continuum of educational opportunities to the Nation's students and 
teachers of science, technology, engineering, and mathematics (STEM).
    WDTS supports experiential learning opportunities that compliment 
curriculum taught in the classroom and: (1) build links between the 
national laboratories and the science education community by providing 
funding, guidelines, and evaluation of mentored research experiences at 
the national laboratories to K-12 teachers and college faculty to 
enhance their content knowledge and research capabilities; (2) provide 
mentor-intensive research experiences at the national laboratories for 
undergraduate and graduate students to inspire commitments to the 
technical disciplines and to pursue careers in science, technology, 
engineering, and mathematics, thereby helping our national laboratories 
and the Nation meet the demand for a well-trained scientific/technical 
workforce; and (3) encourage and reward middle and high school students 
across the Nation to share, demonstrate, and excel in math and the 
sciences, and introduce these students to the national laboratories and 
the opportunities available to them when they go to college.
    In fiscal year 2008, the DOE Academies Creating Teacher Scientists 
(DOE ACTS) program, formerly the Laboratory Science Teacher 
Professional Development (LSTPD) program, will support the 
participation of approximately 300 teachers. All 17 of DOE's national 
laboratories will participate in this program. Each national laboratory 
can elect to implement either or both of the two types of teacher 
professional development models in DOE ACTS: (1) Teachers as 
Investigators (TAI) is geared towards novice teachers typically in the 
elementary to intermediate grade levels; and (2) Teachers as Research 
Associates (TARA) for teachers with a stronger background in science, 
mathematics, and engineering.
    The Science Undergraduate Laboratory Internship (SULI) program, 
which provides mentor intensive research experiences for undergraduates 
at the national laboratories, will support approximately 340 students 
in fiscal year 2008. The Albert Einstein Distinguished Educator 
Fellowships, the College Institute of Science and Technology (CCI) 
program, the Pre-Service Teacher activity for students preparing for 
teaching careers in a STEM discipline, and the National and Middle 
School Science Bowls will all continue in fiscal year 2008.

Science Laboratories Infrastructure
            Fiscal Year 2007 Request--$50.9 Million; Fiscal Year 2008 
                    Request--$79.0 Million
    The mission of the Science Laboratories Infrastructure (SLI) 
program is to enable the conduct of DOE research missions at the Office 
of Science laboratories by funding line item construction projects and 
the clean up for reuse or removal of excess facilities to maintain the 
general purpose infrastructure. The program also supports Office of 
Science landlord responsibilities for the 24,000 acre Oak Ridge 
Reservation and provides Payments in Lieu of Taxes (PILT) to local 
communities around ANL, BNL, and ORNL.
    In fiscal year 2008, SLI will fund four construction subprojects: 
Seismic Safety Upgrade of Buildings, Phase I, at the Lawrence Berkeley 
National Laboratory (LBNL); Modernization of Building 4500N, Wing 4, 
Phase I, at ORNL; Building Electrical Services Upgrade, Phase II, at 
ANL; and Renovate Science Laboratory, Phase I, at BNL. Funding for 
fiscal year 2008 includes $35,000,000 held in reserve pending 
resolution of issues related to capability replacement and renovation 
at PNNL. If the issues are resolved, DOE will initiate a reprogramming 
request to use these funds to replace and/or upgrade mission-critical 
facilities currently located in the Hanford Site 300 Area. The SLI 
program continues funding for demolition of the Bevatron at LBNL in 
fiscal year 2008, and funding is also provided for the demolition of 
several small buildings and trailers at ORNL.

Science Program Direction
            Fiscal Year 2007 Request--$170.9 Million; Fiscal Year 2008 
                    Request--$184.9 Million
    Science Program Direction (SCPD) enables a skilled, highly 
motivated Federal workforce to manage the Office of Science's basic and 
applied research portfolio, programs, projects, and facilities in 
support of new and improved energy, environmental, and health 
technologies. SCPD consists of two subprograms: Program Direction and 
Field Operations.
    The Program Direction subprogram is the single funding source for 
the Office of Science Federal staff in headquarters responsible for 
managing, directing, administering, and supporting the broad spectrum 
of Office of Science disciplines. This subprogram includes planning and 
analysis activities, providing the capabilities needed to plan, 
evaluate, and communicate the scientific excellence, relevance, and 
performance of the Office of Science basic research programs. 
Additionally, Program Direction includes funding for the Office of 
Scientific and Technical Information (OSTI) which collects, preserves, 
and disseminates DOE research and development (R&D) information for use 
by DOE, the scientific community, academia, U.S. industry, and the 
public to expand the knowledge base of science and technology. The 
Field Operations subprogram is the funding source for the Federal 
workforce in the Field responsible for management and administrative 
functions performed within the Chicago and Oak Ridge Operations 
Offices, and site offices supporting the Office of Science laboratories 
and facilities.
    In fiscal year 2008, Program Direction funding increases by 8.2 
percent from the fiscal year 2007 request. Most of the increase will 
support an additional 29 FTEs, to mange the increase in the SC research 
investment that is a key component of the President's American 
Competitiveness Initiative; four new FTEs to support NSLS-II, and ITER 
project office activities; and 35 FTEs--the staff of the New Brunswick 
Laboratory--transferring from the Office of Security and Safety 
Performance Assurance. Twenty-four FTEs are reduced across the SC 
complex in fiscal year 2008 consistent with SC's corporate workforce 
planning strategy. The SCPD fiscal year 2008 increase also supports a 
2.2 percent pay raise; an increased cap for SES basic pay; other pay 
related costs such as the Government's contributions for employee 
health insurance and Federal Employees' Retirement System (FERS); 
escalation of non-pay categories, such as travel, training, and 
contracts; and increased e-Gov assessments and other fixed operating 
requirements across the Office of Science complex.

Safeguards and Security
            Fiscal Year 2007 Request--$71.0 Million; Fiscal Year 2008 
                    Request--$71.0 Million
    The Safeguards and Security (S&S) program ensures appropriate 
levels of protection against unauthorized access, theft, diversion, 
loss of custody, or destruction of DOE assets and hostile acts that may 
cause adverse impacts on fundamental science, national security, or the 
health and safety of DOE and contractor employees, the public, or the 
environment. The Office of Science's Integrated Safeguards and Security 
Management strategy uses a tailored approach to safeguards and 
security. As such, each site has a specific protection program that is 
analyzed and defined in its individual Security Plan. This approach 
allows each site to design varying degrees of protection commensurate 
with the risks and consequences described in their site-specific threat 
scenarios. The fiscal year 2008 budget includes funding necessary to 
protect people and property at the 2003 Design Basis Threat (DBT) 
level. In fiscal year 2008, funding for the Cyber Security program 
element addresses the promulgation of new National Institute of 
Standards and Technology (NIST) requirements that are statutorily 
required by the Federal Information Security Management Act (FISMA) to 
improve the Federal and Office of Science laboratory cyber security 
posture.

                               CONCLUSION

    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science research programs and our 
contributions to the Nation's scientific enterprise and U.S. 
competitiveness. On behalf of DOE, I am pleased to present this fiscal 
year 2008 budget request for the Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have.

                      SCIENTIFIC RESEARCH AT NREL

    Senator Dorgan. Dr. Orbach, thank you very much. I want to 
ask a series of questions and then I will turn to my 
colleagues.
    First and foremost, my colleague from Colorado mentioned 
that NREL, I had the opportunity to be in Golden, Colorado 
recently, is also working on issues like cellulosic ethanol. 
Tell me what the relationship is between your Office of Science 
and the three facilities you're going to designate, how that 
relates to NREL, what the coordination is, and so on?
    Dr. Orbach. We work very closely, Mr. Chairman, with NREL, 
and, in fact, we fund research at NREL. And, very generally, we 
support the basic end of the research continuum that leads to 
market placement of these new technologies. NREL focuses on the 
applied research, the step needed to take the basic ideas and 
convert them to the market. It's not a sharp division. In order 
to communicate, we need to understand the applied sector and 
they also do basic research, so that we can communicate most 
effectively. So, our relationship with NREL is a very close 
one, we work very closely with the program in the Department, 
Energy Efficiency and Renewable Energy for joint workshops and 
joint enterprises.
    Senator Dorgan. So the significant difference here is 
applied versus basic?
    Dr. Orbach. That's correct.

                 ADVANCED SCIENTIFIC COMPUTING RESEARCH

    Senator Dorgan. In 2008 the budget proposes $340 million 
for advanced scientific computing research. These funds will 
help complete the acquisition of a 250 teraflop system at Oak 
Ridge. What's the relationship between the computing facility 
at Oak Ridge, when it's completed, with the computing facility 
at Argonne or at Berkeley, for example?
    Dr. Orbach. Well, the one at Berkeley is what we call a 
capacity machine, which services about 2,500 users. The machine 
at Oak Ridge is what we call a capability machine. We reserve 
it for a smaller number so they can get larger amounts of time. 
There are only about 400 users at Oak Ridge.
    Also, the architectures are different. We're exploring 
speeds that have never been achieved before. Nobody knows which 
scientific problems are most efficient on which architecture. 
So, at Oak Ridge, you'll find an architecture which is a Cray 
architecture. At Argonne, you'll find a Blue GeneP architecture 
and you'll find a Power5 architecture at NERSC at Berkeley. We 
believe that different science problems will be solved more 
efficiently on different machines. We don't know. So, we want 
to have the opportunity to explore which machine is best for 
which class of scientific problems.

                          CARBON SEQUESTRATION

    Senator Dorgan. Let me also ask you about the role of the 
Office of Science in carbon sequestration. You're doing 
research in those areas?
    Dr. Orbach. Yes, we are.
    Senator Dorgan. Again, basic research as opposed to applied 
research?
    Dr. Orbach. That's correct, sir. We have it in two of our 
programs: biological and environmental research and basic 
energy sciences. The latter focuses on the geologic issues 
associated with carbon storage. The former talks about the 
earth and the ability to store carbon in roots, in the surface, 
also with biological microbes, for example, that will absorb 
carbon dioxide. It looks at the biological side for 
sequestration.

              TRANSITION OF RESEARCH INTO THE MARKETPLACE

    Senator Dorgan. You know, there's a phrase that people 
refer to. I was unaware of it, but it is called the DOE's 
valley of death. Have you heard of that?
    Dr. Orbach. Yes.
    Senator Dorgan. And, it's a phrase that people use to 
describe, I guess, how too little research really translates 
into new technologies that move to the marketplace. And, 
therefore, the valley of death. There seems to me to be a fair 
question about how effectively we translate the product of 
research into practical applications in the marketplace. Tell 
us a little about your view of that.
    Dr. Orbach. Well, it's very difficult. We're not the only 
country that struggles with that transition. The applied 
programs, in fact, are charged with that responsibility, but 
we're trying something new. The bioenergy research centers are 
a construct where we hope that the private sector will join 
with us in the basic research. The Federal money buys down the 
risk for the private capital so they can invest smaller amounts 
with this very high risk, as it is basic research. But, what 
we're hoping is that with the private sector as a partner, that 
when basic research pays off, they will then transfer that to 
the marketplace. So, we're looking at new methods. The Energy 
Policy Act gave us the Other Transactions Authority, so we have 
new funding structures now, that we can use with the private 
sector. We are attempting to come up with innovative ways to 
cross the ``valley of death.''
    Senator Dorgan. Mr. Orbach, sometimes those of us without 
strong science backgrounds have difficulty visiting with 
scientists because we don't always understand exactly what 
they're saying. We have great respect for those that work in 
the sciences, obviously, but would you do me a favor? Would you 
send the committee a list, with an analysis, of a dozen or so 
of the most interesting, promising, perhaps some controversial, 
but breathtaking research projects that you see in your agency 
and in the future of your agency so that we can try to 
understand? If you can translate all that into the kind of 
thing that those of us who are non-scientists can understand I 
think it would give us a better idea of what you are doing and 
what you see ahead of you. But, I for one, appreciate your 
being here and appreciate especially the importance of this 
office. It is not the highest profile office in the Federal 
Government, but in many ways it holds the key to tomorrow's 
opportunities for our country.
    [The information follows:]

Interesting and Promising Research Projects in DOE and in the Future of 
                                  DOE
    We are very grateful to the chairman for giving us this opportunity 
to explain the significance of what we do in terms that non-scientists 
can understand. Before we describe some of the projects we view as most 
promising, just a few words to put our answer into context:
    To describe the far-reaching impact of DOE Office of Science-
supported research on our economy, our technology, and our national 
life over the past five decades--and to predict the potential of Office 
of Science-supported research to transform Americans' lives for the 
better in the decades ahead--is an exciting task. Numbers only begin to 
tell the story. Forty-five Nobel laureates. Scores of fundamental 
discoveries in a wide array of fields from high energy physics, to 
biological research, to high-speed computing (the Office of Science 
website lists just a ``top 100''). Countless new products, 
technologies, and even whole industries owe their existence to 
scientific research first supported by the Office of Science. But lists 
alone barely convey the true scope of the transformation we have 
generated, or the potential for new discoveries to transform our 
Nation's future.
    Our lives have been fundamentally reshaped by Office of Science-
supported discoveries. The entire field of nuclear medicine arose 
largely as an outgrowth of ``accelerator science'' spearheaded by the 
Office of Science and its predecessor agencies to support research in 
high energy and nuclear physics. At the core of MRIs are 
superconducting magnets, a technology first successfully developed by 
Office of Science-supported scientists at Fermilab to build the atom-
smashing Tevatron. PET Scans grew out of pioneering advances by the 
Office of Science and predecessor agencies in particle accelerators, 
biological radiotracer molecules, photodetectors, and high-speed 
computers. Today particle accelerators producing X-rays, protons, 
neutrons, or heavy ions--once built mainly as research tools for 
physicists--provide advanced cancer treatment for millions of patients 
and are found at every major medical center in the United States.
    The Information Age itself would have been impossible without the 
fundamental breakthroughs produced by research supported by the Office 
of Science--including key discoveries essential to the development of 
the Standard Model of high energy physics. Our world of ``smart'' 
cellular phones, cameras, music players, and appliances rely on the 
utilization of such phenomena and tools as the giant magnetoresistive 
effect and plasma chambers first investigated by Office of Science-
sponsored researchers.
    In short, Office of Science-sponsored discoveries are part of the 
very fabric of our contemporary high-tech world--a legacy of its 
historic role as the primary Federal sponsor of basic research in the 
physical sciences.
    Here are some of the most promising major areas of research we are 
pursuing today:
    Harnessing Nature for New Sources of Energy.--Since initiating the 
Human Genome Project in 1986, DOE has played a leading role in 
advancing modern biotechnology. We are applying these advances and 
sophisticated new tools to the task of probing microbes for solutions 
to energy production, carbon capture, and environmental cleanup. One of 
the most promising potential applications of biotechnology today lies 
in bioenergy production. Microbes are experts at harvesting energy from 
almost any form, from solar radiation to photosynthesis-generated 
organic chemicals to minerals in the deep subsurface. For example, 
there are some 200 microbes in the hindgut of the termite. They 
contribute to the termite's super-efficiency in breaking down cellulose 
into sugars that can be fermented into fuel. We now have at our 
disposal the tools and insights for cracking nature's code for 
accomplishing these marvels. Developing cost-effective ways of 
producing ethanol from cellulose is the key to making ethanol truly 
commercially viable, and biotech likely holds the solution to this 
challenge; biofuels also are one major means of reducing net carbon 
dioxide emissions into the atmosphere.
    Our Joint Genome Institute is already sequencing the DNA in these 
microbes to identify the metabolic pathways by which these micro-
organisms accomplish their mission. To seize upon these and other 
scientific opportunities, the Office of Science is establishing three 
new Bioenergy Research Centers, funded at $25 million each per year for 
5 years, to bring together multidisciplinary teams of top scientists to 
accelerate the breakthroughs necessary for the development of cost-
effective production of cellulosic ethanol and other biofuels. 
Universities, national laboratories, nonprofit organizations, and 
private firms have been invited to compete for these grants, singly or 
in partnerships. Proposals were due on February 1, 2007; awards will be 
announced this June; and Centers will be underway by early in fiscal 
year 2008. We estimate biofuels can replace 30 percent of the 
transportation fuels we currently consume, reducing our dependence on 
imported oil, and providing energy security for our Nation.
    Making Fusion Power a Reality.--Fusion powers the sun and the 
stars. Through our participation in ITER, a major international fusion 
research project, we are seeking to overcome the technical barriers to 
bringing fusion energy to the electric grid. In November 2006, the 
United States signed an agreement with 6 other partners. Scientists 
supported by the DOE Office of Science will be working side by side 
with counterparts from China, the European Union, India, Japan, the 
Republic of Korea and the Russian Federation to build and operate a 
reactor that demonstrates the scientific and technological feasibility 
of fusion energy.
    The fusion process occurs in the sun or stars when lighter 
elements, hydrogen for example, fuse together under incredibly high 
temperatures (10-100 million degrees Celsius) to make heavier elements, 
thereby releasing energy and forming a stew of charged subatomic 
particles known as plasma. The key challenge is containing this plasma 
on earth. ITER will contain the plasma through use of extremely 
powerful magnetic fields. ITER, if successful, will put the world one 
step away from construction of a commercial fusion power plant. Fusion 
has the potential to provide abundant, clean, carbon-free energy for 
the world's growing electricity needs.
    Extending the Frontiers of Science with the World's Fastest 
Computers.--The supercomputer is science's newest and most powerful 
tool, enabling researchers to model and simulate experiments that could 
never be performed in a laboratory. Some see computer modeling and 
simulation as a new ``third pillar'' of scientific discovery, side by 
side with scientific experiment and scientific theory. Supercomputing 
has enormous implications for U.S. competitiveness, for it holds out 
the promise of enabling U.S. industry to perform ``virtual 
prototyping'' of complex systems and products, substantially reducing 
development costs and shortening time to market. The Office of Science 
has been leading the way in developing the Nation's civilian 
supercomputing capabilities, acquiring ever-faster machines, nurturing 
the complex software development knowledge necessary to take advantage 
these unprecedented processing capabilities, and helping to bootstrap 
the U.S. supercomputer industry. Thousands of scientists from DOE labs 
and universities are taking advantage of these capabilities. Two 
private firms, Pratt & Whitney and Boeing, won time on the Office of 
Science fastest computer as part of the INCITE competition--in which 
national laboratory, university, and corporate researchers vie for time 
on Office of Science machines--and are performing important simulations 
of turbine operation and aerodynamic design. This has reduced their 
cost of production and time to market, giving them more of a 
competitive edge over their rivals on the international scene.
    The Office of Science is building the world's most powerful 
supercomputing centers for open science. The Oak Ridge National 
Laboratory Leadership Computing Facility includes a Cray XT4 system 
that will be upgraded to 250 teraflop (trillions of calculations per 
second) peak capability. The Argonne National Laboratory Leadership 
Computing Facility will acquire an IBM Blue Gene/P this year with a 
peak capability of 100 teraflops. We are exploring these two different 
computer system architectures because we believe that different 
architectures will be better suited for different types of scientific 
problems. The National Energy Research Computing Center will reach 100-
150 teraflop peak capacity this year and will serve over 2,500 
scientists from DOE laboratories, universities, and companies, 
nationwide. Office of Science computing capabilities are expected to 
reach a petaflop (1,000 teraflops) by the end of 2008, far ahead of any 
foreign competition.
    Leading the Nanotech Revolution.--The Office of Science is 
positioning the United States as the global leader of the 
nanotechnology revolution, perhaps the most economically promising 
technological revolution of our era. Our five Office of Science-
supported Nanoscale Science Research Centers (four of which are now 
operational, with a fifth coming on line this year) provide our 
Nation's research community with the world's most advanced tools for 
exploring and manipulating matter at the nanoscale. Coupled with the 
world-leading high-intensity light sources at our National 
Laboratories, which enable scientists to image matter at the molecular 
level, these capabilities will have a dramatic impact on our national 
economy and energy security in the coming years. Fundamental research 
at the nanoscale may lead to methods to split water with sunlight for 
hydrogen production; technologies for harvesting solar energy with 
greater power efficiency and lower costs; super-strong lightweight 
materials to improve efficiency of vehicles; ``smart materials'' that 
respond dynamically to their environment; and low-cost fuel cells, 
batteries, supercapacitors, and thermoelectronics.
    Manipulating matter at the atomic scale takes us into the realm 
where the chemical, physical, optical, and mechanical properties of 
materials can be dramatically different, creating the potential for the 
basis of new technologies. For example, both diamonds and graphite 
found in pencil lead are made of the same element--carbon. Their vastly 
different properties arise from differences in the arrangement of 
carbon atoms at the atomic scale. Carbon nanotubes (where the carbon 
atoms are arranged in a tube shape, a nanometer in diameter and with 
walls a single atom thick) have the right properties to be the building 
blocks for a range of novel energy technologies and electronic devices: 
they are incredibly tiny, stronger than steel, can withstand high 
temperatures, and have a range of controllable electronic properties. 
Nanotubes are already finding applications in energy technologies such 
as novel Lithium-ion batteries and supercapacitors; but realizing the 
full potential of nanotubes will require addressing challenges 
associated with fabricating and manipulating these molecular scale 
objects.
    The Big Bang Machine.--Researchers at Brookhaven National 
Laboratory's Relativistic Heavy Ion Collider (RHIC) are pushing the 
frontiers of human knowledge by using a powerful particle accelerator 
to recreate conditions as they existed in the universe just 
microseconds after the Big Bang. In a headline-making development, RHIC 
has identified a new and entirely unexpected form of matter, a 
``perfect liquid'' composed of quarks and gluons, the tiny components 
that make up the core of atoms. Work at RHIC will provide scientists 
with a deeper fundamental understanding of nuclear matter and its 
interactions, knowledge that is likely to prove invaluable not only to 
research in nuclear physics, but also to research in energy, materials 
science, astrophysics, and national security.
    RHIC accelerates two beams of gold nuclei to high energies and 
brings them into head-on collisions inside state-of-the-art detectors 
designed to observe the particles that emerge. The collision 
disintegrates the nuclei and momentarily produces the unimaginably hot 
and dense matter called the quark-gluon plasma.
    Understanding our Climate.--The Office of Science leads Federal 
agencies in the field of climate modeling. Office of Science-supported 
researchers are advancing climate models through the use of 
sophisticated field measurement tools as well as the Office of 
Science's supercomputing resources, the fastest in the world available 
for civilian research. Ultimately we need to be able to understand the 
factors that determine the Earth's climate well enough to predict 
climate and climate impacts decades or even centuries in the future. 
Advanced climate and Earth system models are needed to describe and 
predict the roles of oceans, the atmosphere, sea ice, and land masses 
on climate, including the interactions and feedbacks between the 
various components of the climate system. The role of clouds and 
aerosols in controlling solar and terrestrial radiation onto and away 
from the Earth also needs to be better understood if we are to reduce 
uncertainty in climate prediction. The Office of Science is addressing 
this need through the Atmospheric Radiation Measurement (ARM) program 
which is providing scientists new insights into the effect of aerosols 
from air pollution on clouds and the consequent heating and cooling of 
the atmosphere.
    Restoring Sight to the Blind.--Diseases of the retina are the 
leading cause of blindness in the United States. The Artificial Retina 
Project, involving six DOE national laboratories, three universities, 
and an industrial partner, is utilizing the DOE labs' unique expertise 
in materials science, advanced microelectronics, and micro-fabrication 
to design and construct the most advanced device to restore sight to 
the blind. The pliable, biocompatible 60-electrode artificial retina 
has been approved by the FDA for human trials. Plans call for 30 
patients to receive artificial retinas this year.
    The artificial retina captures visual signals and sends them to the 
brain in the form of electrical impulses. The device is a miniature 
disc that contains an array of electrodes that can be implanted in the 
back of the eye to replace the damaged retina. Visual signals are 
captured by a small video camera located in eyeglasses worn by the 
blind person and processed through a microcomputer worn on a belt. The 
signals are transferred to the electrode array in the eye. The array 
stimulates the optical nerves which then carry a signal to the brain. 
The Office of Science goal for the project is to develop the technology 
to fabricate a 1000-electrode device that should allow a blind person 
to read large print and recognize faces. Technologies developed for 
this project may also be applicable to the general field of neuron 
prostheses.
    The Elusive Higgs . . . Solving the Mystery of Mass.--The Standard 
Model of particle physics, developed with the contributions of numerous 
Office of Science-supported scientists and Office of Science 
experimental facilities over many years, is an extraordinarily 
powerful, accurate, and far-reaching physical theory that explains the 
behavior of matter down to the level of tiny quarks. Yet a critical 
piece of this theory--the so-called Higgs particle--has never been 
observed. According to the Standard Model, the Higgs particle and its 
associated field are actually responsible for giving all matter its 
mass. Yet the Higgs remains the only particle predicted by the Standard 
Model that has not yet been detected. Discovery of the Higgs and its 
properties--or discovery of some tantalizing alternative possibilities 
instead of the Higgs--would open new vistas in particle physics and 
provide new clues to some of the deepest mysteries of space, time, and 
matter. Recently, work at the Tevatron at Fermilab in Illinois--
currently the world's most powerful particle accelerator--zeroed in on 
a lower range for the Higgs mass that suggest it might conceivably be 
detected at the energies achieved at the Tevatron. This would be the 
crowning discovery of the Standard Model and would mark the birth of a 
``new physics'' with the potential to transform our basic understanding 
of the physical universe.
    Using Microbes to Clean-up the Environment.--The Office of Science 
is looking at ways microbes can be used to degrade or transform 
contaminants such as toxic metals and radionuclides. Microbes have 
evolved over 3.5 billion years as masters at living in almost every 
environment. Thriving in some of the harshest environments on the 
planet, these single-celled organisms have developed powerful and 
diverse capabilities that, if harnessed through biotechnology, may 
provide cost-effective restoration strategies for many of the 
contaminated sites DOE is committed to cleaning up. Through research in 
areas such as genomics, geochemistry, imaging, and modeling and 
simulation, Office of Science-sponsored scientists are studying the 
complex interactions of microbes with contaminants in the subsurface 
environment and exploring remediation methods that rely on naturally 
occurring microbes. Several potential candidates are already being 
tested in the field. Geobacter species, for example, can transform 
uranium from a soluble form to an insoluble form, effectively removing 
it from groundwater and preventing its further mobility. A Shewanella 
species commonly found in soils is capable of reducing a wide range of 
organic compounds, metal ions, and radionuclides to less toxic forms or 
forms that are immobilized in the soil.
    Building New Tools for Basic Science.--The world-leading large 
scale instruments designed, built, and operated by the Office of 
Science and its predecessor agencies--synchrotron light sources, 
neutron scattering facilities, and particle colliders--have not only 
driven entire fields like high energy and nuclear physics, but have 
also become essential tools for studying and understanding the 
arrangement of atoms in biological molecules, pharmaceuticals, and 
materials from metals to ceramics to plastics. Particle accelerators 
have been the primary sources of light and other forms of radiation for 
these facilities. Critical to development of the next generation of 
scientific user facilities--ones that will allow researchers to observe 
matter (and its components) at increasingly smaller scales and follow 
atomic motions and chemical reactions in real time--are advances in 
accelerator sciences such as superconducting radiofrequency (SCRF) 
technology.
    The Office of Science is leading a national effort at several 
national laboratories and universities aimed at developing SCRF 
accelerator technology. This technology utilizes the remarkable 
properties of superconducting materials to greatly reduce the size and 
cost of accelerators while increasing their efficiency. These advances 
are being driven, in part, by the scientific opportunities at the very 
highest energies--SCRF is critical to realizing the proposed 
International Linear Collider, a thirty kilometer long particle 
collider which will be capable of exploring fundamental physics 
questions such as the physics responsible for the origin of mass as 
well as the nature of dark matter. However, the impact of this 
technology will be far wider, enabling next generation accelerator-
based facilities such as free electron lasers (FELs), which will 
provide world-leading tools for transformational basic science in areas 
such as materials, nanotechnology, and biotechnology in the coming 
decades. The many applications of FELs include industrial processes 
such as laser penning to toughen ship propellers, high power laser 
weapons systems for naval defense, laser surgery, as well as imaging 
fundamental chemical and biological processes.
    Basic research in science pursues the frontiers of discovery. While 
we expect discoveries to follow our instincts, we are often surprised, 
sometimes with wonderful consequences. What we have listed above is our 
present understanding of things to come, but there will be more--
opportunities that we did not anticipate. With sufficient investment 
and consistent support, we can discover, apply, and improve the quality 
of our lives.

    Senator Dorgan. Senator Domenici.

                        CLIMATE CHANGE RESEARCH

    Senator Domenici. Let me just echo what you just said. You 
will find within the Federal Government and outside the Federal 
Government are gigantic research institutions and researchers 
that will be knocking at your door and trying to become part of 
the success that is, what they hope it's going to be because of 
what you have and what we have made available to you and what 
we're going to give you and the challenge we are going to place 
upon you. We wish you very, very much success.
    Climate research, which is being spoken of very, very 
heavily by many, many people. The Department has requested $138 
million to support climate change research. It is my 
understanding that this supports DOE's role in the 
administration's multi-agency climate change research 
initiative. It appears, from budget documents, that the 
Department has primary responsibility for carbon science cycle 
and the climate impacts. That doesn't mean you're in charge of 
the whole program, but obviously this does give you a very big 
role in climate change research by the United States and on 
behalf of the Department of Energy.
    We very much want to help you with that as the source of 
your money, the source of your policy direction. There are so 
many things that one would ask, but this is not the time. This 
is, sort of, an opening round here. Staff will initiate a 
number of other ones and many will be submitted on behalf of 
both sides of the isle. So, we won't be trying for one-side to 
get up on, take over from the other. This is going to be a very 
wonderful venture together. And, I look forward to it and I 
hope you do. We have some great laboratories that you are going 
to be working with and when they see the relationship that is 
given to them in this legislation, in this funding, they will 
be very, very surprised.
    Mr. Chairman, thank you for yielding to me and I appreciate 
the opportunity to work with you on this committee with him and 
other people in these areas.
    Senator Dorgan. Senator Craig.

                     IMPORTANCE OF NEUTRON SOURCES

    Senator Craig. Thank you very much, Mr. Chairman. And, 
again, Mr. Secretary, we thank you for being here. As you can 
hear by our chairman and ranking member, there are tremendously 
high levels of expectation and we're all very excited about 
getting more heavily involved in both basic research and then 
its application.
    I had mentioned earlier, you were at the National Lab in 
Idaho. You visited and you saw, it's my understanding, the 
Advanced Test Reactor. It's a valuable national asset and the 
question is, how to make the ATR a successful national user 
facility. You manage many user facilities successfully and 
because of your experience in this area, I would like to ask 
that you work very closely with DOE NE too, and Assistant 
Secretary Dennis Spurgeon, in an effort to make the ATR a 
world-class user facility.
    You know and I'm told that all neutrons are not created 
equally. The Office of Science uses HFIR at Oak Ridge for basic 
neutron physics research, while Navy DOE NE uses the ATR for 
nuclear energy research. How important is it for science that 
you have access to these complementary neutron sources for 
varying fluxes and energies?
    Dr. Orbach. It's extraordinarily important because the 
excitations we look at, in various structures, have different 
energies. And they also are sometimes very difficult to see 
with low fluxes. The power of the ATR is exceptional and it's 
an exceptional resource in that regard.
    Senator Craig. Well, I look forward to working with you and 
you working with the lab. As I say, we have these marvelous 
resources at hand, and now we're in the business of 
transforming them into plow shares. And that's an exciting 
opportunity for us and for the world and we thank you.
    Senator Dorgan. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.

                                EARMARKS

    Senator Allard. I want to cover the renewable energy lab 
there in Colorado at Golden. They do basic research and as well 
as applied research. And one of the criticisms I've gotten from 
the lab is that they begin to count on a certain amount of 
money and then all of sudden earmarks come in and take away 
from what they were counting on in the budget process. What 
portion of your budget is dispersed based on earmarks and what 
portion is given out in grants?
    Dr. Orbach. Well, I can only give you the fiscal year 2006 
numbers, because the fiscal year 2007 grants are still 
underway.
    In 2006, we had $129 million that were congressionally 
directed out of a total budget of $3.6 billion.
    Senator Allard. Three-point-six billion dollars?
    Dr. Orbach. Yes.
    Senator Allard. Okay. All right. And, how much of your 
proposed funding will be directed to programs--well, let me 
see, no--and how has that split changed over the last 5 to 10 
years?
    Dr. Orbach. It's increased quite substantially. In previous 
years it was around $60 million, but it more than doubled in 
fiscal year 2006.
    Senator Allard. So, you're saying from fiscal year 2005 to 
fiscal year 2006 that earmarks doubled?
    Dr. Orbach. Yes.
    Senator Allard. Really. That is a very significant 
increase. And, then in the bill that we had last year I think 
there was a lot of earmarks in that again. So, that trend was 
continuing. It started out that way at least, didn't it?
    Dr. Orbach. The fiscal year----
    Senator Allard. It never made it to the floor, maybe, did 
it?
    Dr. Orbach. I'm sorry.
    Senator Allard. Did it make it to the floor? I was trying 
to remember, on the Energy Bill. I don't think it did.
    Dr. Orbach. Well, the Senate bill did not make it to the 
floor. The House bill passed.
    What we are doing is that I sent out a letter, actually 
today and tomorrow, to all those who received congressionally 
directed funds in fiscal year 2006 and gave them the 
opportunity to apply through our normal process of peer review 
in fiscal year 2007.
    Senator Allard. Based on ability to do the research?
    Dr. Orbach. Based on the mission of the Department and the 
quality of the research that will be determined through peer 
review.
    Senator Allard. Research institutions in Colorado and 
agencies seem very comfortable with the grant process where 
you're rewarded the grant based on your ability to do the 
research and your proven record of performance. And so, I'm 
very comfortable with that grant process. And, you know, we'll 
be looking at ways with what we can do to make sure we sustain 
the grant process.
    Dr. Orbach. Thank you.
    Senator Allard. Now, as I mentioned, renewable energy and 
energy efficiency are important to me and the chairman has a 
specific interest in that too. How much of your proposed 
funding will be directed to programs that involve research in 
renewable energies and conservation?
    Dr. Orbach. I can give you some specific numbers, but it's 
a very complex calculation. And the reason is that many of our 
research programs support renewable research, but indirectly. 
For example, our light sources for structures for biological 
systems, the Joint Genome Institute. I would prefer to answer 
that for the record, if I could, in detail, but also to go into 
the richness of the way in which we support renewable energy. 
The AEI, the Advanced Energy Initiative, that's one crosscut 
that we've done, is around $700 million. That includes fusion 
energy. And so, part of this depends on how you define 
renewables. And, I would prefer that, so as not to mislead you, 
to give you the numbers for the record, but the numbers in our 
biology and environmental research exceed $100 million in the 
2008 budget, $75 million of which are the three bioenergy 
centers that we'll be funding in fiscal year 2008.
    Senator Allard. Well, I'm interested in how much goes 
toward renewable energy. I assume maybe the chairman of the 
committee might be too. So, I would get those figures to me and 
I think the committee----
    Dr. Orbach. It's a very significant fraction, but I would 
urge you to include the resources that we use for the purposes 
of renewable energy.
    [The information follows:]

   Proposed Funding for Research Programs in Renewable Energies and 
                              Conservation

    The DOE Office of Science supports an enormous range of basic 
scientific research relevant to renewable energy and energy efficiency. 
To convey the full scope of this research and the relevant funding, I 
would like to take a moment to explain the complex process by which 
basic research ultimately informs, shapes, and transforms our energy 
economy by providing new technologies, approaches, and products.
    Basic research differs from applied research in a key respect: in 
basic research there is often no one-to-one correspondence between a 
discovery or breakthrough, on the one hand, and an application, on the 
other. Breakthroughs often lead to multiple applications. Applications 
often rely on multiple breakthroughs. The relationship between the 
explicit goal of a basic research program and its ultimate impact on 
the energy economy may be quite unexpected and surprising.
    For example, as I pointed out in my opening remarks, one of the 
major breakthroughs needed to make intermittent renewable energy 
sources such as solar and wind power part of electrical baseload is a 
major improvement in our methods of electrical storage. A major 
breakthrough in electrical storage would likely change the entire 
technological and economic calculus affecting solar and wind power. It 
could bring solar and wind into their own.
    But, for budget purposes, analysts would not tend to classify 
funding for research in electrical storage as research in renewable 
energy--even though it could have a far more profound effect on the 
technological and commercial viability of these renewables than some of 
the research that is focused more explicitly on solar and wind 
technologies themselves.
    There is a second and related point. Basic research in the physical 
sciences today is critically dependent on advanced facilities and 
instruments. The materials research sponsored by our Basic Energy 
Sciences (BES) program--which has enormous implications for both energy 
efficiency and the development of more effective solar and other 
renewable energy sources--relies on a set of advanced, high-intensity 
light and neutron sources. These light sources--and we own and are 
building the very best in the world--are expensive to create, and a 
large portion of BES's budget goes to the construction and operation of 
these facilities. Yet they provide the critical tools our scientists 
need to push the boundaries in such areas of research. BES's four 
Nanoscale Science Research Centers (soon to become five) provide tools 
that will revolutionize materials, create vast new energy efficiencies 
throughout the economy, and also enable us to overcome at the nanoscale 
many of the barriers that prevent solar and other renewable energy 
sources from being truly efficient. Our Joint Genome Institute (JGI), 
built and operated by our Biological and Environmental Research (BER) 
program, is playing a critical role in the biofuels revolution. JGI is 
using its high-throughput capabilities to sequence the genomes of key 
bioenergy crops such as the poplar tree and key organisms, such as the 
200 microbes in the hindgut of the termite, which hold Nature's secret 
to the super-efficient breakdown of cellulose, a critical step in 
producing cellulosic ethanol.
    Yet if a conventional budget analyst were asked to identify our 
funding for renewable energy and energy efficiency, none of these 
facilities might show up in the analyst's total, because they are not 
classified in that way--even though they are playing a critical role in 
our ability to make progress in these fields.
    A third point is that many of the breakthroughs we achieve in the 
search for more efficient materials and motors, or more effective 
conversion of solar energy to fuels, will have multiple applications 
throughout the economy, improving quality of life for Americans and 
strengthening U.S. global economic competitiveness. The National Energy 
Policy noted that the U.S. economy grew by 126 percent since 1973, but 
energy use increased by only 30 percent. Half to two-thirds of these 
energy savings came from technological improvements throughout the 
American economy, but of course these technological improvements also 
had a major effect on the strength of the U.S. economy and Americans' 
quality of life.
    So I want to encourage the committee to view this basic research 
and its relevance in its totality.
    With that preface, here is a programmatic profile of where our 
transformational basic research relevant to renewable energy and energy 
efficiency is to be found.
    Basic Energy Sciences ($1.5 billion under the fiscal year 2008 
request). BES is our largest ``use-inspired'' energy-related research 
program. Virtually every research program under BES's Materials Science 
and Engineering Division is pursuing research relevant to increased 
efficiency in energy production and use through the development of 
lighter-weight, stronger materials, more efficient engines, and more 
effective transmission and storage of electrical power, to name only a 
few examples. The Chemical Sciences, Geosciences, and Biosciences 
Division is also providing transformational research aimed at 
efficiencies through improved catalysis and combustion. In addition, 
within the BES program, $94.6 million is specifically directed toward 
research in renewable energy, including solar, biomass, hydrogen, and 
wind.
    Biological and Environmental Research (Genomics: GTL Program: 
$154.8 million under the fiscal year 2008 request; Joint Genome 
Institute: $60 million under the fiscal year 2008 request). BER's GTL 
program is devoted to basic research aimed primarily at discoveries 
relevant to renewable energy, providing the Nation's major thrust 
toward basic science breakthroughs leading to the development of cost-
effective commercially viable cellulosic ethanol and other forms of 
biofuels. GTL is the heir to the Human Genome Project, which the DOE 
Office of Science (then known as Energy Research) initiated in 1986. 
GTL has been applying the major advances in biotechnology that have 
grown out of that monumental effort to the advanced study of microbes 
and plants for energy production, environmental remediation, and carbon 
sequestration. This includes $75 million for the establishment of three 
new Bioenergy Research Centers, for which proposals have been received; 
results of this competition will be announced in June. In addition, as 
mentioned, BER's Joint Genome Institute is playing a critical role by 
providing high throughput sequencing of the plants and microbes for 
biofuels.
    Fusion Energy Sciences (FES) ($427.9 million under the fiscal year 
2008 request). Fusion is not usually classified as a renewable energy 
source, but it offers essentially the same benefits: a theoretically 
almost limitless supply of energy with minimal impact on the 
environment. Fusion holds out the promise of delivering plentiful, 
clean, carbon-free energy using elements that are available in abundant 
quantities on earth with virtually no adverse environmental impact. As 
the planet's consumption of energy rapidly increases, fusion holds out 
one of the most formidable potential solutions to growing global energy 
demand; and, like renewables, fusion will produce energy that is carbon 
dioxide and greenhouse gas free. Side by side with renewables and 
greater energy efficiencies throughout our economy, fusion in all 
likelihood will play a major role in our energy portfolio of the 
future. The request includes $160 million for the U.S. contribution to 
ITER, the major international fusion reactor that the United States has 
joined with the European Union, Japan, China, the Russian Federation, 
South Korea, and India to build, starting this year.
    Advanced Scientific Computing Research (ASCR) (approximately 25 
percent of the $340.2 requested for the program in fiscal year 2008). 
Finally, though the amounts are difficult to quantify because of the 
in-kind nature of the contribution, the Advanced Scientific Computing 
Research program contributes substantially to Office of Science efforts 
on renewable energy, energy efficiency, and fusion energy by providing 
computer time, resources, and technical assistance at its 
supercomputing facilities. ASCR provides a very small amount (a few 
million dollars) of direct support for renewables research but provides 
a significant amount for relevant research (about 25 percent of the 
program) through partnerships with BES, BER, and FES. These 
partnerships include the Fusion Simulation Project, computational 
chemistry, materials simulations, computational biology, and supporting 
efforts in computer science and applied mathematics. In addition, the 
National Energy Research Scientific Computing (NERSC) facility provides 
computing time to researchers supported by the Office of Science. Over 
60 percent of the fiscal year 2007 allocations at NERSC are to BES 
(chemistry, materials, geosciences, and engineering), FES, or BER 
researchers. The ASCR Innovative and Novel Computational Impact on 
Theory and Experiment (INCITE) program provides access and computing 
time to the best research from academe, industry, and government labs 
without regard to source of support. In 2007, nearly half of the INCITE 
projects are in fusion, materials, chemistry, engineering, or biology 
representing over 35 million hours of computer time for research in 
these areas.
    This answer necessarily excludes crucial areas of basic science 
research for which the Office of Science is steward, including climate 
modeling, research toward environmental remediation of DOE sites, and 
fundamental research in nuclear and high energy physics, among others. 
Furthermore, it is reasonable to expect some of the fundamental 
research in nuclear and high energy physics to also have energy 
implications, but on a much longer time scale. This very fundamental 
research provides the broader scientific foundation for our ``use-
inspired'' basic research related to energy.

    Senator Allard. That would be fine.
    Dr. Orbach. Good.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Murray.

                            300 AREA AT PNNL

    Senator Murray. Thank you, Mr. Chairman. And, we'd love to 
have you come out and visit PNNL and see some of those great 
research projects. It really is amazing what they're doing. 
And, going back to my questioning. You know that the 
replacement of the 300 Area is top priority for PNNL, and as I 
said, it's apparently hung up over this third party financing 
that OMB is demanding. If you can share with this committee how 
you're dealing with that, I would really appreciate it.
    Dr. Orbach. Well, it's important to us too. What we have 
done, and thanks to you for the help you have given us in 
fiscal year 2007, is to steer $10 million in 2007, which would 
complete the $20 million that fits the profile for the physical 
sciences facility and the 325 building. The replacement process 
is a package and it relies on the third party financing of two 
buildings. We have worked very closely with the laboratory and 
we believe we now have a package that will meet the 
requirements for third party financing. We have had to take 
into account market prices. It's really a good value for the 
taxpayer and we believe that we now have a package which the 
taxpayer will find valuable.
    Senator Murray. And will OMB approve it?
    Dr. Orbach. We will be submitting it to OMB. We hope to 
have final release from our department by the end of this week 
and then submit it to OMB. We have an understanding with them 
that within a month we will get a response. So that we can 
release those funds, hopefully, by the end of April or 
beginning of May.
    Senator Murray. Okay. Do you have a contingency plan if 
they say no?
    Dr. Orbach. We would probably go back to the drawing board 
and try and fix the third party financing. We think this will 
work, but third party financing of two parts is essential to 
successful departure from the 300 Area. And, I'd hate to give 
them up. We have both a biology and a computational facility. 
PNNL's role in computation is going to be very important in the 
future and that building is a stand alone building, which 
primarily will be Department of Homeland Security, large data 
sets. I think that's essential for the future of the 
laboratory. So, I'm going to do the best I can to get those 
third party packages approved.
    Senator Murray. Okay. Well, so within 1 month we should 
hear from OMB on----
    Dr. Orbach. Yes. My best estimate is that it will leave the 
Department, hopefully, by the end of this week and then we have 
an understanding with OMB that we'll get a response within 
roughly 1 month.
    Senator Murray. Well, there are two other Federal partners, 
NNSA and DHS, DHS you mentioned. Neither of them have any funds 
in the fiscal year 2008 budget request, and I was told that if 
funds were added by Congress to the Department of Homeland 
Security budget in 2007, which I was able to do, that they 
would include funds in 2008. We added $2 million, yet there are 
no funds in the budget request. Are you working with NNSA and 
DHS to ensure adequate funds are included?
    Dr. Orbach. Yes. We're working very closely with them. We 
have an MOU that you're aware of. The funding in 2007 has $7.9 
million from NNSA and $2 million from DHS in addition to our 
$10 million. The $2 million is set, so is the $7.9 million, so 
I think we can deliver on the 2007 committment. We're sort of 
taking one year at a time. In 2008, for the reasons you 
understand----
    Senator Murray. They did not include any money in the 2008 
request.
    Dr. Orbach. Yes. I have spoken with Admiral Cohen about 
that and we hope that some resolution will be found.
    Senator Murray. Will be found. Okay, that's not a very 
definitive answer. I hope that as a steward of the PNNL and all 
the laboratories that you really take a leadership role and 
push them in coming together with us on that.
    Dr. Orbach. I will promise you that. I have been doing it 
and I will continue to do that.

                              5-YEAR PLAN

    Senator Murray. Okay. I also was disconcerted that the 5-
year plan made no mention of this project either. And I was 
curious if this is a priority and we're all moving toward, why 
it wasn't part of the 5-year plan?
    Dr. Orbach. Well, the 5-year plan came to us at a bizarre 
time. We didn't have a 2007 budget and we were trying to put 
together the 5-year plan. So we didn't know how the 2007 budget 
would fit into the 2008 and then, from then on. It's not a one-
year-at-a-time, but a continuum. And, frankly, we had no time 
to go through the review process with OMB that we normally 
would in a 5-year plan. So, what you have, as you noted, is 
really just a simple extrapolation of the 2008 budget out for 5 
years on a proportional basis. It's not a 5-year plan, it's 
2008----
    Senator Murray. It's a budget based on current numbers and 
it's not a plan.
    Dr. Orbach. That's correct. It's based on the President's 
request for 2008 and then extrapolated out.
    Senator Murray. It's disconcerting to see that because we 
need that kind of leadership in the 5-year plan to make sure 
we're all----
    Dr. Orbach. Absolutely, and in the previous year, in fiscal 
year 2007, we had a 2006 budget so we could put a 5-year plan 
together. But, the budget process this year just didn't give us 
the opportunity to do that.
    Senator Murray. Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you Chairman Dorgan for holding this hearing today and giving 
us the opportunity to discuss these important DOE programs.
    I'm very pleased the Administration is continuing to increase 
funding for basic and physical sciences. It is vital to build robust 
research and development budgets and to maintain a healthy level of 
investment in our national laboratory system in order to attract the 
best and brightest minds in the sciences.
    If the United States is to remain on the cutting edge of research 
and development, the work of the Office of Science is a resource we can 
not afford to under fund. As a long time advocate of increased funding 
for the Office of Science, I'm pleased to see the administration has 
requested $4.4 billion for fiscal year 2008. These investments are 
necessary to keep us on track as leaders in discovery and technology 
advancements.
    I also take great pleasure in representing one of our national 
laboratories. The Pacific Northwest National Laboratory does cutting 
edge work that is an integral part of the future growth of Washington 
State and our Nation. It's important to make full use of all our 
resources to advance science, and the national lab system should play a 
key role.
    One critical project the PNNL has been working on in Washington 
State is the capability replacement project. I look forward to getting 
the opportunity to ask you several questions on that project shortly 
and other matters vital to the Hanford cleanup project.
    Thank you for coming today to testify, Dr. Orbach.

    Senator Dorgan. Senator Murray, thank you very much.

                            RENEWABLE ENERGY

     Secretary Orbach, my colleague Senator Allard is 
absolutely correct that many of us will be interested in the 
issue of renewable energy and the work that you're doing in 
those areas and will want to keep abreast of the relationship 
with the other parts of the Energy Department that are doing 
research in those areas as well.
    Senator Domenici, did you have additional questions?
    Senator Domenici. Mr. Chairman, I believe that if we do, 
and I would prefer to submit them through my staff to the 
Secretary if you don't mind and then back to the committee. I 
would wrap it up from my standpoint by saying, while your 
office has been kind of put in the limelight, by the 
President's remarks in his State of the Union Address and some 
that followed. For many of us, we now know that you have a very 
broad charter. You are not limited to one thing or another. You 
have a very broad base of activities that come within your 
jurisdiction and in your power. And, I hope, and from what I 
can see, I think I'm right, that our chairman is going to be 
looking for places where we can make a real contribution to 
America's energy unpreparedness, in terms of our being too 
heavily committed and too big a user of petroleum products for 
our lifestyle, which carries with it significant negative 
baggage. And, you have been given an opportunity to do, to lead 
a research effort in a number of areas to change that situation 
that exists and is not doing us a bit of good as a people.
    That's a fun situation to be in, if in fact you are given 
some tools.
    Dr. Orbach. Senator, thank you. We have an opportunity here 
that I think we have not had before. The scientific community 
understands exactly your words and has made decisions, personal 
decisions to get involved in energy research. What we are going 
to do is the best basic research in the world that, as I said 
in my opening remarks, will make renewables contribute in a 
significant fashion, not at the 1 and 2 percent, but at the 30 
percent level in our economy.
    Senator Domenici. That's your goal, you say.
    Dr. Orbach. Yes.

                      MAJOR CONSTRUCTION PROJECTS

    Senator Dorgan. Secretary Orbach, I too am going to send 
you a list of questions and I'm interested in visiting some of 
the laboratories and to try to see some of the work, visit with 
the scientists, and so on. It must be almost nirvana to be able 
to hire scientists to operate a department like yours and just 
inquire what's happening in the universe. So, I imagine that 
you have some unbelievably bright staff, some of America's 
best, working on some breathtaking scientific projects. I'm 
also going to be asking our staff here to do some visits to the 
laboratories and will keep in close touch with you.
    I want to ask, you don't have any major construction 
projects in your 2008 budget request, but we know of course 
that you have several projects envisioned in the longer term. 
The International Linear Collider, the ITER and the National 
Synchrotron Light Source II, apparently. Do you have the out-
year cost estimates for these projects? How confident are you 
in the estimates? Will you be able to accommodate, you think, 
in future budgets, large construction projects? Are these 
projects or other projects, in your 20-year facilities plan or 
is that 20-year facilities plan being modified to accomplish 
these projects? So, these are, I'll let you answer that 
question, but these are the kind of questions we're also going 
to submit to you because we want to work with you to make sure 
that you have a funding plan for the longer term, not just 
2008, a funding plan that works.
    Dr. Orbach. Yes, actually, we take pride in that. The 
Spallation Neutron Source was just finished last year. It was 
$1.4 billion. It came in slightly under budget and slightly 
ahead of schedule. Project management is very, very serious to 
us. In terms of ITER, we can give you the explicit numbers out 
to 2014 when the construction is intended to end. And, we have 
been the primary driver for project management in the ITER 
construction process.
    Senator Dorgan. What does ITER look like physically?
    Dr. Orbach. It's huge. It's about eight stories high. It 
looks like a donut. It's a way of containing a fusion plasma at 
200 million degrees of sufficient density to generate half a 
gigawatt of power. So, it's a big donut. If you imagine a donut 
and you put your hand in the middle and open up your fingers, 
you have a d-like cross section, and that's now thought to be 
the appropriate geometry for stability of these plasmas at 
these huge temperatures. It will burn deuterium and tritium. 
These are two isotopes of hydrogen. It's the way the sun works. 
And, they will produce nothing but energy and helium gas. It's 
completely benign.
    Senator Dorgan. You know, Secretary Orbach, your 
personality changes when I ask you a question that allows you 
to provide an answer you know I won't understand.
    Dr. Orbach. I'm sorry. I think----

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Dorgan. But, let me tell you something. I hope I 
speak for Senator Domenici as well. If he understood all that, 
then I'm in serious trouble as a chairman. We really are very 
interested in these things and interested in what our 
scientists are doing. And, I asked the question to elicit your 
response. I hope that our subcommittee, all of the members of 
our subcommittee will be interested in working with you on 
these really fascinating projects.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                 BIOLOGICAL AND ENVIRONMENTAL RESEARCH

    Question. The Department of Energy's Office of Biological and 
Environmental Research (DOE-OBER) has a robust program for monitoring 
carbon cycles on land, but does not address ocean carbon. DOE 
traditionally has not examined ocean acidification in the context of 
global warming. Increases in atmospheric carbon dioxide make the ocean 
more acidic, and ocean acidification has a large impact on global 
carbon cycles. Please answer the following questions:
    Do you believe that monitoring of oceanic carbon cycles is within 
the scope of the Office of Biological and Environmental Research?
    Answer. The uptake of carbon dioxide by the ocean has a chemically 
well-understood effect on the acidity of ocean water. Since the 
industrial revolution, the pH of the ocean has been reduced slightly. 
This fact was brought to the attention of the scientific community in 
part through global ocean carbon cycle modeling carried out at DOE 
laboratories, with the support of the Biological and Environmental 
Research (BER) program. Changes in ocean pH may have an effect on the 
ocean carbon cycle in the future, and the BER climate modeling program 
will attempt to account for those effects in the development of the 
coupled climate-carbon cycle models supported by the program. The BER 
climate change research program conducts basic research and develops 
advanced climate modeling. Supported research includes studying the 
effects of climate change on important terrestrial ecosystems, but does 
not include environmental monitoring. Monitoring of the oceanic carbon 
cycle is outside the present scope of BER; however, it is supported by 
other Federal agency partners in the Climate Change Science Program 
(CCSP), including the National Oceanic and Atmospheric Administration 
(NOAA) and the National Science Foundation (NSF).
    Question. If so, how much of the 17 percent increase in funding 
provided by the President's fiscal year 2008 budget would be needed to 
initiate such a program? Is more funding needed? If so, how much?
    Answer. As stated above, environmental monitoring is outside the 
scope of the BER basic research program. Monitoring of ocean carbon 
cycles is supported by other Federal agencies.
    Question. If not, how can other Federal agencies best take 
advantage of DOE's expertise in this realm? What types of programs do 
you envision where the Office of Biological and Environmental Research 
provides important support to this national need?
    Answer. One of the most robust methods of studying the carbon cycle 
of the entire ocean, and the chemistry of ocean water, including its 
acidity, is through detailed, three-dimensional models of the 
biogeochemistry of the ocean. When such a model is coupled to a model 
of the atmosphere, uptake of atmospheric carbon dioxide by the ocean is 
accounted for. This approach is central to the BER climate modeling 
program, which includes leading-edge three-dimensional modeling of the 
coupled atmosphere-ocean system. Other Federal agencies can best take 
advantage of DOE's expertise in this realm by communicating their 
process research results to the modeling teams so that the models 
account for the most up-to-date scientific results.
    Question. The Department of Energy's Office of Biological and 
Environmental Research (DOE-OBER) has developed unique capabilities to 
monitor and predict chemical and physical interactions between fluids 
and subsurface environments. This capability is essential to 
understanding the behavior of carbon dioxide in the deep subsurface; 
and the application of this knowledge to the permitting and monitoring 
of carbon sequestration sites. Please answer the following questions:
    In addition to technology development, what efforts are you making 
to improve our scientific understanding of the behavior of carbon 
dioxide at potential sites for geologic carbon sequestration?
    Answer. Within the Office of Science, the Basic Energy Sciences 
(BES), Biological and Environmental Research (BER), and Advanced 
Scientific Computing Research (ASCR) programs support research that 
underpins efforts to understand the behavior of carbon dioxide 
sequestered in deep geological formations. BES-supported research 
focuses on areas where improved understanding is needed to evaluate the 
potential for deep underground sequestration, including understanding 
the mechanical stability of porous and fractured reservoirs/aquifers, 
understanding multiphase fluid flow within the aquifers, and 
understanding the geochemical reactivity within the reservoirs/
aquifers. BER supports research towards the development of methods or 
strategies to enhance carbon sequestration in long-term stable forms in 
plants and soils. This research includes the development of functional 
genomic, genetic, and proteomic approaches that may lead to improved 
biomass systems for carbon fixation and sequestration. ASCR leads the 
development of high-performance computers for related scientific 
applications and supports research in multiscale mathematics and 
computation science needed to develop optimal codes for modeling 
complex systems such as subsurface biogeochemical processes. ASCR has 
also partnered with BER to support research on groundwater reactive 
transport modeling and simulation through the Scientific Discovery 
through Advanced Computing (SciDAC) program.
    Additionally, the Office of Science has led a series of workshops 
that engaged the broader scientific community to identify the 
challenges associated with terrestrial and subsurface geological carbon 
sequestration and promising research areas that, if pursued, could lead 
to further understanding of related biochemical and geochemical 
processes and enable the development of long-term sequestration 
technology options. More information on these workshops can be found in 
the subsequent reports: ``GTL: Genomics Roadmap--Systems Biology for 
Energy and Environment,'' August 2005 (http://genomicsgtl.energy.gov/
roadmap); the Basic Research Needs for Geosciences: Facilitating 21st 
Century Energy Systems workshop held in February 2007, (report to be 
released soon); and Computational Subsurface Sciences Workshop, held in 
January 2007 (http://subsurface2007.labworks.org/report/).
    Question. At the current level of investment, how long before we 
have sufficient scientific knowledge to begin permitting various sites 
around the country in the near future?
    Answer. Sufficient scientific understanding currently exists to 
support planned large-scale demonstrations of carbon sequestration in 
depleted oil and gas reservoirs. Only after these large-scale 
demonstrations are conducted will there be sufficient understanding of 
the long-term stability and environmental impacts of geological storage 
of carbon dioxide in such reservoirs. DOE's Office of Fossil Energy is 
pursuing this applied research and development path. Knowledge about 
deep saline aquifers is far less extensive, and many substantial issues 
need to be addressed through research and demonstration before it will 
be possible to permit sequestration in saline aquifers at a commercial 
scale.
    Question. In addition to current efforts in carbon capture and 
sequestration technology; what additional programs are needed to 
develop carbon sequestration science to the point where we can safely 
permit and monitor sequestration sites? How much additional funding is 
needed to implement these programs?
    Answer. The Office of Science, in coordination with the Office of 
Fossil Energy, is supporting a range of basic research activities that 
will provide a sound scientific basis for carbon sequestration. Such 
research includes the study of geophysical imaging methods needed to 
measure and monitor below-ground reservoirs of carbon dioxide resulting 
from geological sequestration, multiscale modeling to understand and 
visualize saline aquifers and other geological reservoirs, and studies 
to enhance long-term sequestration processes and the stability of 
stored carbon in terrestrial vegetation and soils. The recent Office of 
Science-led workshops on Basic Research Needs for Geosciences: 
Facilitating 21st Century Energy Systems, February 2007, and 
Computational Subsurface Sciences Workshop, January 2007, identified 
priority research areas needed to develop carbon sequestration science. 
The results of these workshops will help inform ongoing research 
planning and future budget requests.
    Question. In fiscal year 2007, some compromises had to be made for 
new facility construction and for user facility operations in the 
synchrotron radiation/photon science area. How do you see the fiscal 
year 2008 budget addressing the objective of maintaining the on-time, 
on-budget completion of major construction projects and also achieving 
a level of funding for facility operations which is needed to ensure 
scientific accomplishment commensurate with the large investments that 
have been made in major scientific user facilities?
    Answer. To support users and to maintain the facilities and 
instruments, the fiscal year 2008 budget funds facility operations 
generally at or near optimal levels, with the exception of Fusion 
Energy Sciences facilities, which would be operated at about half of 
optimal levels as part of a balanced fusion program, consistent with 
the fiscal year 2007 request and fiscal year 2006 appropriation. The 
fiscal year 2008 budget provides funding for the major construction 
projects and major items of equipment at a level that assumes full 
funding of construction in fiscal year 2007; i.e., the fiscal year 2008 
budget was submitted to Congress prior to passage of the final fiscal 
year 2007 appropriation. Therefore, impacts on construction projects 
from the fiscal year 2007 appropriation are not addressed in the fiscal 
year 2008 budget.
    Question. California is, and has been an R&D leader, contributing 
greatly to the U.S. economy through its scientific and technical 
talent. The challenge is sustaining this talent with increasing 
pressures on the Federal budget. The Nation needs to leverage its 
investments across agencies and throughout the U.S. scientific 
enterprise to effectively and synergistically apply its world-class R&D 
capabilities. I am interested in how the DOE plans to leverage the 
investments and accomplishments of the NNSA complex, such as its 
tremendous supercomputing capability and the fusion capability of the 
National Ignition Facility, to support our civilian science programs? 
Will you and the Office of Science be able to reap benefits from the 
investments made to develop NNSA's scientific capabilities to support 
DOE's national security mission? How do you plan to leverage the 
capabilities at universities, Office of Science laboratories, and the 
NNSA laboratories to capitalize on the strengths and capabilities 
across the DOE complex?
    Answer. The Office of Science (SC) utilizes investments made by 
NNSA in the field of High Energy Density Physics (HEDP) as well as in 
high-performance computing in a number of ways.
    Increased cooperation between these two programs will have benefits 
for both. The NNSA HEDP infrastructure, represented by facilities such 
as the National Ignition Facility (NIF) in California, OMEGA at the 
University of Rochester, and the Z-Pinch at Sandia, are all used by SC 
funded researchers to advance the field of High Energy Density 
Laboratory Plasmas (HEDLP), which is a subset of HEDP. These facilities 
will be used by SC to perform research on extreme states of matter, for 
example, simulating in a laboratory physical properties of phenomena 
that once could only be viewed from afar by telescope. These facilities 
may also serve to move forward research on inertial fusion energy.
    Many of the facilities that NNSA uses for stockpile stewardship, 
including Z-Pinch, Omega, and NIF (which will begin operations in 
2010), can be used for both national security and energy-related HEDP 
research. The joint NNSA-SC Fusion Energy Sciences (FES) HEDLP program 
is currently being put together. A workshop to consider integration of 
NNSA and FES program elements is planned for May 2007. Details of the 
joint HEDLP program are contained in the DOE NNSA and SC fiscal year 
2008 President's Budget Request narratives.
    In the area of computation, there has been a high level of 
collaboration to advance the state-of-the art in computation. NNSA is a 
world leader in mission-driven computation for its stockpile 
stewardship program. SC laboratories have assisted in the development 
of software codes, for instance, and have also benefited from NNSA's 
experience in running machines like Cray's Red Storm and the IBM 
BlueGene/L.
    Researchers from NNSA and SC labs as well as university researchers 
are already reaping benefits from the array of facilities within the 
DOE complex. We are examining ways to increase collaboration with NNSA 
facilities without compromising national security or NNSA's mission. We 
expect this collaboration to develop further and help keep the United 
States at the forefront of many areas of physical science.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                  LOW DOSE RADIATION EFFECTS RESEARCH

    Question. Dr. Orbach, you and I have worked on understanding the 
effects of low dose radiation for some time. It appears that the 
science indicates that the linear no-threshold model theory does not 
hold up scientifically.
    Can you tell me what the conclusions of the Department's research 
indicate and when you will complete this evaluation?
    Answer. Until recently, biophysical models of response to radiation 
exposure have assumed independent action of ionization events in cells 
and tissues. The models assume that the single cell is the unit of 
function. The models also assume that every ionization event increases 
the probability of DNA breaks. Together, these physical/biological 
assumptions supported linear, no-threshold models of radiation risk and 
cancer. Historically, measurements of initial radiation damage such as 
cell death, chromosome aberrations, or micronuclei formation in 
cellular systems showed a fairly linear response with dose, but these 
experiments seldom encompassed the lower doses of interest.
    New research from DOE's Low Dose Program directly challenges the 
old fundamental assumptions. The new findings provide compelling 
evidence that ionization events in cells and tissues are not completely 
independent and that tissues have surveillance mechanisms that 
dramatically affect the development of cancer and the behavior of 
cancer cells. The research is establishing the importance of studying a 
tissue's biological response to an exposure, rather than studying just 
the initial events within an individual cell.
    This new research includes recent studies that highlight biological 
signaling between irradiated cells and nearby non-irradiated cells. 
This crosstalk cannot be explained with the older biophysical 
paradigms, which assume that the single cell is the unit of function. 
These data also show that cells within a tissue are not independent of 
each other in a multi-cellular organism. Indeed, the signaling from 
non-irradiated cells can actually eliminate damaged cells from a 
tissue. These and other results are consistent with the conclusions of 
the recent French National Academy Report ``Dose-effect Relationships 
and Estimation of the Carcinogenic Effects of Low Doses of Ionizing 
Radiation'' (March 2005).
    We believe that investments being made to study the effects of low 
doses of radiation in 3 dimensional tissues, a significant advance over 
traditional isolated cell approaches, will provide substantial results 
in the next 3 to 5 years. Research to understand the variability and 
genetic susceptibility of individuals to low doses of radiation is much 
more difficult but will have significant payoffs in 5 to 7 years.
    Question. How will you work to see that this information is used to 
make informed decisions about environmental and worker safety?
    Answer. In addition to verifying and expanding research findings, 
we are working to communicate the new biological paradigms to the 
larger scientific communities in the United States and around the 
world. We feel that the quickest and most appropriate route to 
establish the need for reconsideration of risk estimate models is to 
gain understanding and acceptance from the scientific community first, 
while informing the regulating agencies and the general public along 
the way.
    The growing body of research from the Low Dose Program now provides 
a scientific basis for reconsideration of models used to set regulatory 
standards. The Low Dose Program is supporting research to help in the 
development of new mechanistic models that would incorporate all 
aspects of radiation biology, from cellular and molecular actions 
within tissues, to the evolution of cancer as a multi-cellular disease. 
Ongoing research in the Low Dose Program and advances in systems 
biology hold promise in providing this modeling framework, which can 
facilitate moving new biological paradigms into the regulatory process.

                   SCIENTIFIC INTERACTION WITH CHINA

    Question. I have been talking for quite some time about the need 
for a U.S. global climate change policy that incorporates all world 
economies, including the developing world. The foundation of our 
success will be the development of affordable technologies.
    Today, the United States is the largest emitter of greenhouse 
gases, but China will soon overtake us in this regard. I believe it is 
critical that we engage China as a partner in our efforts to curb 
reductions in greenhouse gases. We need to launch a serious, ambitious 
effort to reduce greenhouse gas emissions in both of our nations 
through technology deployment and other coordinated efforts.
    Please tell me about the current collaborative efforts between the 
United States and China to advance technologies that will reduce 
greenhouse gas emissions, including any bilateral R&D programs.
    Answer. The fossil energy protocol is a bilateral agreement on 
energy technology cooperation that has a goal of reducing the impact of 
China's growing demand on global hydrocarbon markets; some of the 
activities in the Protocol relate to modeling and technologies for 
control of greenhouse gas emissions in China. Additionally, both China 
and the United States are charter members of the Carbon Sequestration 
Leadership Forum (CSLF), which is an international climate change 
initiative focused on development of improved cost-effective 
technologies for the separation and capture of carbon dioxide for its 
transport and long-term safe storage. The United States and China are 
co-sponsors of a CSLF-recognized project for ``Regional Opportunities 
for CO<INF>2</INF> Capture and Storage in China''.
    Question. Can you please tell me what additional steps this 
administration plans to take to address this important issue?
    Answer. The fossil energy protocol was renewed in 2006 for an 
additional 5 years.

           WORKFORCE DEVELOPMENT FOR TEACHERS AND SCIENTISTS

    Question. I am pleased to see that the fiscal year 2008 budget 
request would increase this account to $11 million, an increase of 57 
percent over the operating plan for fiscal year 2007.
    I believe the Department of Energy can make an important 
contribution to the quality of math and science teaching in this 
country, which is so critical to our Nation's continued economic 
competitiveness.
    I understand that the Department is developing a strategic plan for 
the scale-up of its activities in this area.
    Could you describe the main elements you are including in this 
strategic plan?
    Answer. A strategic plan is being developed in the Office of 
Science for its Office of Workforce Development for Teachers and 
Scientists (WDTS). It is not a Departmental-wide blueprint for this 
program area. As the strategic plan is under development, I regret that 
I am unable to provide a substantive answer to your question at this 
time. As to a ``scale-up'' of our activities, I point you to 
recommendation number five of the just-released interagency Academic 
Competitiveness Council report (located at http://www.ed.gov/about/
inits/ed/competitiveness/acc-mathscience/index.html), which states that 
``funding for Federal STEM education programs designed to improve STEM 
education outcomes should not increase unless a plan for rigorous, 
independent evaluation is in place, appropriate to the types of 
activities funded.'' We have begun working with the other members of 
the Council under the auspices of the National Science and Technology 
Council to implement the recommendation in this report. Overall, the 
fiscal year 2008 request to Congress of $11.0 million is an increase of 
38 percent over the fiscal year 2007 appropriated level of $8.0 
million.
    Question. How will you ensure that the expanded program will 
include the widest possible cross-section of our Nation's educational 
system?
    Answer. In January 2007, WDTS held a series of 9 focus groups 
designed to gather advice and information from a very wide cross-
section of STEM education leaders from universities, educational 
associations, under-represented populations, the private sector, other 
Federal agencies, and other groups. These entities remain part of the 
planning process for WDTS and will help ensure that the program 
includes the widest possible cross-section of participants from our 
Nation's educational system.

                      HIGH ENERGY DENSITY PHYSICS

    Question. Dr. Orbach, as you are aware, this subcommittee has 
carried language in the fiscal year 2006 and draft fiscal year 2007 
bill directing the Department to integrate the Federal research in High 
Energy Density Physics among DOE's Office of Science and the NNSA and 
other Federal agencies.
    I want to thank you for supporting the multi agency effort to 
establish the High Energy Density Laboratory Plasmas program, including 
the establishment of a multi agency advisory group to oversee the 
establishment of research priorities and goals.
    One objective of my proposal was to expand the use of critical NNSA 
facilities such as the Z machine for non weapons research.
    What is the DOE's plan to maintain the United State's leadership in 
this area of science?
    Answer. As part of the new joint program on High Energy Density 
Laboratory Plasmas (HEDLP), SC and NNSA are initiating a series of 
focused workshops to engage the research community in identifying 
promising research opportunities that merit increased investment as the 
joint program is implemented. The first workshop is scheduled for this 
May. These workshops will examine the use of NNSA facilities for world-
class HEDLP science. The workshops will be used to guide development of 
new research efforts in fiscal year 2009, which will be competitively 
solicited and peer reviewed, to ensure top-quality science for this 
investment.
    Question. Has the Department included any funding for this 
scientific research as a joint program? If not, why not?
    Answer. Funding will be provided from existing support for HEDLP 
within SC's Fusion Energy Sciences (FES) program and NNSA in fiscal 
year 2008. As the program matures, it is expected to compete for 
funding against the other programs in SC and NNSA.
    Question. What is the Department's plan for stewardship of this 
important area of scientific research?
    Answer. HEDLP will be nurtured under the joint program by NNSA and 
FES to steward this emerging field of physics. DOE plans to establish a 
new advisory committee to give technical advice and help develop a 
scientific roadmap for the joint program.

                  INTEGRATION OF SCIENCE AND THE NNSA

    Question. With passage of the Energy Policy Act of 2005, your 
position has been elevated to the Under Secretary level. In this 
position, you now have responsibility for setting the scientific agenda 
for both the Office of Science labs as well as integrating the 
capabilities of the NNSA facilities, which have tremendous scientific 
capabilities and facilities. This budget is the first year that you 
would have had to integrate the research at all labs.
    How has this budget request changed to integrate research of NNSA 
and Office of Science facilities?
    Answer. The Office of Science (SC) and NNSA have always had a high 
level of collaboration in a number of areas, including high-performance 
computing and high-energy density physics (HEDP). These collaborations 
are being expanded, and new areas are currently being added. I think 
the key to any collaboration is to take advantage of both NNSA and SC 
strengths. Increased cooperation between these two programs will have 
benefits for both.
    In the area of computation, there has been a high level of 
collaboration to advance the state-of-the-art in computation. NNSA is a 
world leader in mission-driven computation for its stockpile 
stewardship program. SC laboratories have assisted in the development 
of software codes, for instance, and in turn have benefited from NNSA's 
experience in running machines such as Cray's Red Storm and the IBM 
BlueGene/L.
    Many of the facilities NNSA uses for stockpile stewardship, 
including Z-Pinch, Omega, and the National Ignition Facility (which 
will begin operations in 2010) can be used for HEDP and energy-related 
HEDP research. The joint NNSA-SC Fusion Energy Sciences (FES) program 
in High Energy Density Laboratory Plasmas (HEDLP) is currently being 
put together. A workshop to consider the integration of NNSA and FES 
program elements is planned for May 2007. Details of the joint HEDLP 
program are contained in the NNSA and SC fiscal year 2008 President's 
Budget Request narratives.
    Question. Which NNSA research facilities do you believe offer the 
best opportunity to support the Science research priorities?
    Answer. There are a number of ongoing collaborations between NNSA 
in computation and HEDLP. With the start of the joint program in HEDLP, 
and the workshop planned for May, we expect to learn more about how to 
maximize the potential for collaboration. At a minimum, I expect this 
cooperation will improve the effectiveness of both programs' missions 
and use of facilities.

                       HIGH PERFORMANCE COMPUTING

    Question. High Performance Computing developed by the NNSA to 
support the weapons stockpile stewardship program, and the research 
within the Office of Science has enabled breakthrough advances in 
science and engineering in the United States. These advances contribute 
to the Nation's economic competitiveness. Even today, industry looks to 
the Department to define future computing architecture and code 
development.
    What is the DOE long term strategy to keep the Nation at the 
forefront of High Performance Computing?
    Answer. As a partner in the President's American Competitiveness 
Initiative, we are committed to keeping America at the forefront of 
High Performance Computing (HPC) and the computational sciences. The 
first petascale computer resource for open science will be operating at 
the Leadership Computing Facility (LCF) at Oak Ridge National 
Laboratory in late 2008. Experts expect that, for at least the next 
decade, chip transistor counts will continue to follow Moore's law, but 
fundamental physics will significantly limit chip speeds. Consequently, 
increased parallelism will be essential for continued chip performance 
improvement, and increased transistor counts will allow radical 
departures from traditional CPU designs. To prepare for future systems, 
we are partnering with the National Nuclear Security Administration 
(NNSA), the Defense Advanced Research Projects Agency (DARPA), and the 
National Security Agency (NSA) through the High Productivity Computer 
Systems program to foster development of the next generation of 
hardware. Further, SC and NNSA have entered into a research contract 
with IBM to develop the next generation of the IBM Blue Gene.
    In addition, we will redirect a portion of our computer science 
research portfolio to address major obstacles constraining the ability 
of a broad range of computational scientists to use petascale computers 
effectively in areas important to DOE missions. Also, our Scientific 
Discovery through Advanced Computing (SciDAC) program has created a 
powerful, integrated research environment for advancing scientific 
understanding through modeling and simulation. Through SciDAC, applied 
mathematicians, computer scientists and computational scientists are 
working in teams to create the comprehensive, scientific computing 
software infrastructure needed to enable scientific discovery in the 
physical, biological, and environmental sciences at the petascale and 
to develop efficient and scalable data management and knowledge 
discovery tools for large data sets. Further, SciDAC-2 expanded the 
original program by collaborating with the NNSA and the National 
Science Foundation as new funding partners.
    Finally, we will continue the successful Computational Science 
Graduate Fellowship with NNSA to develop the next generation of 
computational science leaders.
    Question. What is the DOE doing to establish a R&D roadmap with 
industry and labs to support long term research of advanced computing 
architecture concepts, algorithms, and software in order to meet the 
next technological changes?
    Answer. The 2004 report of the Federal High-End Computing 
Revitalization Task Force (HECRTF) coordinated by the National Science 
and Technology Council (NSTC) established the R&D roadmap, which we are 
actively pursuing through government-wide interagency working groups. 
Both the Office of Science (SC) and NNSA are formal mission partners in 
Phase III of the DARPA High Productivity Computing Systems (HPCS) 
research program. Phase III of the HPCS program is focused on the 
generation of HPC systems that will be available from Cray and IBM in 
the 2011 timeframe. In addition, both SC and NNSA will participate in 
an NSA workshop which is intended to bring together key experts across 
related interdisciplinary fields to consider and define the 
opportunities and challenges in six technical thrusts for improving 
power efficiency, chip input/output (I/O), interconnect, resilience, 
productivity, and file system I/O.
    The long term architectural strategy for system vendors is in a 
period of significant change. Both SC and NNSA are working with vendors 
to help them better understand our mission needs. Examples include 
working with Cray on its XMT multithreaded architecture and with IBM on 
the Road Runner architecture and the design of the next generation of 
the Blue Gene architecture.
    SC and NNSA continue to work together in the area of HPC software 
environments. A recent example is SC participation in the NNSA workshop 
on its TriLab L2 petascale user environment milestone that was held 
after the 2007 Advanced Simulation and Computing principal investigator 
meeting. As a next step, SC and NNSA are co-sponsoring a workshop on 
petascale tools in Washington, DC this August. Results from this 
workshop will inform SC funding plans in petascale tool research to 
meet both SC and NNSA needs.
    integration of high performance computing among science and nnsa
    Question. Both the DOE/Office of Science (SC) and NNSA have 
national High Performance Computing programs for their respective 
missions. Both offices support acquisition plans with decidedly 
different goals. The Office of Science seeks to expand computing 
capacity to other labs, while the NNSA is seeking to reduce the number 
of labs with High Performance Computing from 3 to 2 labs.
    What is the plan within DOE to acquire new high performance 
computing platforms and how is it integrated and coordinated between 
the Office of Science and the NNSA?
    Answer. To support open scientific discovery, we must maintain our 
balanced high performance computing (HPC) resources portfolio that 
includes two types of HPC facilities. In the case of the National 
Energy Research Scientific Computing (NERSC) Center, we have 
established a mission-critical high performance production computing 
center. NERSC provides HPC resources for open science to support the 
needs of the Office of Science program offices. Currently, NERSC 
supports over 400 projects with 2,500 users and is predominately 
characterized by capacity computing. Within the current NERSC funding 
profile we have established a stable 3-year upgrade cycle which is 
consistent with the life cycle of HPC production resources.
    The second priority in our ``Facilities for the Future of Science: 
A Twenty Year Outlook'' is establishment of HPC capability computing 
facilities. In contrast to NERSC, which supports thousands of users 
with small allocations of time, the high performance computing 
resources at the Leadership Computing Facilities (LCFs) at Oak Ridge 
and Argonne provide large allocations to a small number of projects 
with the potential for breakthrough scientific impact. Because access 
to capability computing is so important to our national 
competitiveness, we have made the HPC resources at the LCFs available 
to the open scientific community, including industry, through the 
Innovative and Novel Computational Impact on Theory and Experiment 
(INCITE) program. Over the past 3 years we have focused our efforts on 
establishing capability computing centers to provide a variety of HPC 
resources for open science.
    In 2003, we signed a memorandum of understanding with NNSA to 
establish a framework for planning and coordinating research, 
development, engineering, and test and evaluation activities related to 
high-end technical computing. The acquisition of both the Red Storm 
(Cray XT3) computer at the LCF at Oak Ridge National Laboratory and the 
proposed IBM Blue Gene/P at the Argonne LCF were a result of a 
partnership between NNSA Advanced Simulation and Computing (ASC) and 
the Office of Science. More recently, Lawrence Livermore National 
Laboratory, Argonne National Laboratory, and IBM have entered a 
research and development contract to develop the next generation of 
Blue Gene-based products. Oak Ridge is working with Sandia National 
Laboratories and Cray to develop a quad-core version of the Catamount 
operating system. As we go forward, we will continue to rely on our 
close collaboration with NNSA in the area of high performance computing 
research and testbeds. However, NNSA's requirements for classified 
computing are inconsistent with the Office of Science's mission to 
support open science; therefore, ASCR does not share production systems 
with NNSA-ASC.

                            GENOME RESEARCH

    Question. Are we making sufficient investments in the scientific 
underpinnings that would support our Nation's biofuels goals?
    Answer. The Department recognizes the significant scientific and 
technological barriers that need to be overcome in order to achieve our 
Nation's biofuels goals, and is investing a significant portion of our 
research budget to support fundamental research underpinning microbial 
and plant research relevant to biofuels. Three GTL Bioenergy Research 
Centers, representing a total investment of $375 million over the next 
5 years, will conduct comprehensive, multidisciplinary, and integrated 
basic research programs in bioenergy-related systems and synthetic 
biology. Research at the Centers will focus on developing the science 
underpinning biofuel production that will ultimately lead to technology 
deployable in the Nation's energy economy. The Centers will draw 
heavily on technology and basic science generated in the entire 
portfolio of Genomics: GTL activities. The Department also provides 
significant investments in a broad suite of scientific user facilities, 
such as the Production Genomics Facility and structural biology user 
stations at DOE synchrotrons and neutron sources, with unique 
instrumentation, computational capabilities, and experimental capacity 
to enable scientists in universities, Federal laboratories, and 
industry to conduct research underpinning the goals of biofuels 
production.
    Question. With the need to support the DNA characterization of many 
more plants to support our biofuels goals, why has the Department 
reduced funding for the Joint Genome Initiative?
    Answer. The DOE Joint Genome Institute (JGI) receives a significant 
fraction of the overall budget for Biological and Environmental 
Research (BER), indicating our commitment to provide genome sequencing 
resources supporting the Department's missions and its biofuels goals. 
The level of fiscal year 2008 funding has increased significantly 
relative to that of fiscal year 2006. The budget request for the JGI, 
in addition to reflecting a realistic funding balance among the entire 
portfolio of BER research supporting our biofuels goals, also reflects 
the need to replace aging sequencing equipment with more advanced 
instrumentation capable of greater throughput. JGI receives funds from 
sources other than the ``operating'' line in the budget. In fiscal year 
2008, $10 million is requested for JGI from the Genomics: GTL 
Sequencing portion of the BER budget. JGI also receives funding from 
external sources. In fiscal year 2006, JGI received $2.9 million for 
sequencing from ``work for others''; about $1.3 million of which was 
from the intelligence community and the rest from a variety of other 
sources.

                            CLIMATE RESEARCH

    Question. Dr. Orbach, the Department has requested $138 million to 
support Climate Change Research. It is my understanding that this 
supports DOE's role in the Administration's multi agency Climate Change 
Research Initiative. It appears from budget documents, the Department 
has primary responsibility for carbon cycle science and climate 
impacts.
    Can you please explain the administration's research priorities and 
how the Department supports those efforts?
    Answer. The administration's Climate Change Research Initiative 
(CCRI) is a set of cross-agency activities in areas of high priority 
climate change research where substantial progress is anticipated over 
the next 2 to 4 years. The specific focus areas include: climate 
forcing (atmospheric concentrations of greenhouse gases and aerosols); 
climate observations, climate feedbacks, and sensitivity; climate 
modeling, including enabling research; regional impacts of climate 
change, including environment-society interactions; and climate 
observations.
    In fiscal year 2008, the Biological and Environmental Research 
(BER) program will continue to participate in specific research areas 
of the CCRI. These areas include climate forcing, climate modeling, and 
climate change observation. Climate forcing, which includes modeling 
carbon sources and sinks, especially those in North America and 
quantifying the magnitude and location of the North American carbon 
sink, is a high priority need identified in the interagency Carbon 
Cycle Science Plan. In climate modeling, DOE's contribution to the CCRI 
will continue to involve the production of future potential climate 
scenarios for use in assessing the environmental implications of 
different future possible climate states. In the climate observations 
area of the CCRI, the DOE Atmospheric Radiation Measurement (ARM) 
program mobile facility will be deployed to a location where data are 
needed to fill gaps in understanding key atmospheric properties and 
processes, and their effect on the Earth's radiation balance and 
climate. The Integrated Assessment Research contribution to the CCRI 
will continue to be the development of tools for use in assessing the 
costs and benefits of human-induced climate change, including those 
associated with different policy options for mitigating such change. 
The requested BER budget to support these specific CCRI activities in 
fiscal year 2008 is $23.7 million. The remainder of BER's $138 million 
climate change research request supports research in the long-standing 
U.S. Global Change Research Program (USGCRP) and climate change 
mitigation research.
    Question. Does the Office of Science support climate research 
modeling to determine what effect climate change may have on regional 
rainfall patterns? What does the DOE research tell us?
    Answer. The BER climate modeling program supports the development 
and testing of coupled ocean-atmosphere-land surface climate models. 
Those models are used to project climatic change based on specified 
atmospheric greenhouse gas concentrations. Those model runs are 
performed at horizontal grid cell resolution of about 150 kilometers 
(or about 90 miles). There are systematic biases in the precipitation 
patterns in these model runs, particularly in the tropics due to 
processes like convection that are apparently not being represented 
accurately in the atmospheric component of the model. Researchers are 
working in a concerted way to address these systematic biases. Such 
biases notwithstanding, results such as earlier spring snowmelt over 
large parts of the Southwestern United States and a northward shift of 
storm-tracks are fairly robust results in the climate change 
projections so far.

                          CARBON SEQUESTRATION

    Question. The Department plays a large role in supporting carbon 
research, including the possibility for long term sequestration within 
the Climate Change Research program.
    What is your opinion of the technological potential for this 
country to safely sequester large amounts of carbon?
    Answer. Carbon capture and storage technologies through geological 
storage and terrestrial sequestration provide options for reducing 
greenhouse gas emissions. Successful research, development, and 
demonstration are expected to result in widespread, safe deployment of 
these technologies.
    Question. How long do you believe it will be before we will be able 
to utilize large scale carbon sequestration in this country?
    Answer. Although several commercial-scale projects currently 
operate outside the United States, we believe it will be several years 
before the United States will be able to utilize large-scale carbon 
sequestration. Sufficient scientific understanding currently exists to 
support planned large-scale demonstrations of carbon sequestration in 
depleted oil and gas reservoirs. Only after these demonstrations are 
conducted, however, will there be sufficient understanding of the long-
term stability and environmental impacts of geological storage of 
carbon dioxide in these reservoirs to proceed on a large scale. 
Knowledge about deep saline aquifers is far less extensive, and many 
substantial issues must be addressed through research and demonstration 
before we could consider permitting the injection of carbon dioxide 
into saline aquifers at a commercial scale.
    Question. What does the scientific data indicate about our domestic 
capacity to store CO<INF>2</INF>?
    Answer. Scientific data indicate that the United States has a large 
number of geological formations amenable to storage of large quantities 
of carbon dioxide--e.g., oil and gas reservoirs, unminable coal seams, 
and deep saline reservoirs. Current estimates indicate that hundreds of 
years of total domestic carbon dioxide emissions could be stored in 
such formations. In a recent Department study led by the National 
Energy Technology Laboratory (NETL)--``Carbon Sequestration Atlas of 
the United States and Canada''--the DOE Regional Carbon Sequestration 
Partnerships identified over 3.5 trillion tons of possible carbon 
dioxide storage capacity in the U.S. and Canada. Again, greater 
scientific understanding and demonstration of feasibility are needed 
before use of such storage capacity on a commercial scale can be safely 
implemented. There is also significant potential for terrestrial carbon 
sequestration in soils and plants, which is an ongoing area of research 
for the Office of Science as well as other Federal agencies.

                OFFICE OF SCIENCE--ENERGY-WATER PROGRAM

    Question. The Energy Policy Act of 2007 included in section 979 an 
authority for the Office of Science to pursue research, development, 
demonstration, and commercial applications to address issues associated 
with the management and efficient use of water in the production of 
energy. As you are well aware, water plays a big role in the production 
of electricity, and the development of technologies to minimize water 
usage will be critical in areas facing drought conditions.
    Unfortunately, the budget request doesn't provide any funding to 
support this important activity.
    Can you tell me what if anything the Department is doing to carry 
out the direction in section 979?
    Answer. The Department is undertaking activities responsive to 
section 979. For example, Science (SC), Energy Efficiency and Renewable 
Energy (EERE), and Environmental Management staff are working together 
to track existing DOE-wide research, development, and demonstration 
projects relevant to water needs in energy production. SC and EERE 
representatives participate in the National Science and Technology 
Council's Water Availability and Quality Subcommittee. SC and EERE 
representatives are working with the national laboratories to develop a 
broad-based understanding of technology and development needs that 
could improve water efficiency for energy production. Lastly, the 
Department is in the process of preparing a report to Congress 
responsive to section 979(f).

             BIOLOGICAL AND ENVIRONMENTAL RESEARCH FUNDING

    Question. I understand there has been discussions about changing 
the funding model for the Office of Biological and Environmental 
Research to adopt a block funding model that would send the bulk of 
research funding to a single ``core lab.'' I believe this would 
discourage competition among labs to come up with creative research and 
discourage the development of broad multidisciplinary approach at each 
lab.
    Is the Department considering changing the BER program to a block 
funding model?
    Answer. BER will transition its research and technology development 
portfolio at the national laboratories into one with three key thrusts. 
First, BER will maintain its use of and reliance on rigorous merit-
review for research selection. Second, it will focus on support of 
team-based research efforts. Third, it will fund a portfolio of 
laboratory research focused on one or more BER Scientific Focus Areas. 
There is no plan to support a Scientific Focus Area exclusively at a 
single ``core'' national laboratory. The purpose of this new funding 
strategy is to better align BER's approach with that used by the other 
major DOE Office of Science programs.
    Question. Would this approach impede the other DOE labs from 
promoting relevant new ideas and quickly responding to emerging 
national problems when a single lab has been designated for funding as 
the lead lab?
    Answer. Impeding competition is contrary to the principles in the 
Administration's R&D Investment Criteria, and any new approach should 
encourage, not impede, competition.

                       JOINT DARK ENERGY MISSION

    Question. Over the past few years, this committee has consistently 
demonstrated its strong support for the Joint Dark Energy Mission. 
However, other priorities in the Office of Sciences 20 Year Facilities 
Plan are moving forward, even some ranked lower than the Joint Dark 
Energy Mission (JDEM). This program seems to be stuck and moving 
nowhere--especially in light of the Department's budget priorities.
    I am specifically concerned that the Administration's fiscal year 
2008 request for JDEM will hinder the Department's capacity to move 
forward aggressively either in partnership with NASA or as a single 
agency mission in 2008.
    Unfortunately, this budget reduction may also discourage 
international collaborations interested in a near term launch.
    What do you and the Office of Science plan to do in the remainder 
of 2007 and in 2008 to get JDEM moving? What can Congress do to help 
you ensure that JDEM doesn't become a missed opportunity?
    Answer. The DOE fiscal year 2007 appropriation and the President's 
fiscal year 2008 budget request have allocated resources for continuing 
the dark energy program, including funding R&D for the SuperNova/
Acceleration Probe (SNAP), a concept for JDEM. In addition, there is 
funding for mid-term or longer-term ground- or space-based dark energy 
R&D of approximately $3 million in fiscal year 2007 and $5.8 million 
requested for fiscal year 2008. This research will be competitively 
selected.
    In fall 2006, DOE and NASA began jointly funding a National 
Research Council (NRC) study, to be completed by September 2007, to 
advise NASA on which of the 5 proposed NASA Beyond Einstein missions, 
including JDEM, should be developed and launched first. If the 
recommended top priority by the NRC study is JDEM, DOE and NASA could 
request to proceed jointly on this mission, leading to construction and 
launch during the next decade.
    In response to a Congressional directive for DOE to begin planning 
for a single-agency dark energy mission and explore other launch 
options, DOE has been investigating a scenario of participation with 
international partners, in particular France and Russia.
    There are also other international efforts towards a space-based 
dark energy mission. CNES is supporting an equivalent amount of R&D 
towards DUNE, a French dark energy concept. The European Space Agency 
(ESA) has recently completed a feasibility study for a dark energy 
mission and is planning to have a competition and decision in 2009 for 
its next mission.
    DOE and CNES officials have discussed a possible partnership and 
have agreed to work together until fall 2007 to document possible 
cooperation on the SNAP mission. Whether CNES will eventually 
participate in SNAP, DUNE, or other missions depends on the results of 
the NRC study and other policy considerations. DOE officials have also 
discussed possible Russian collaboration with the Federal Agency for 
Science and Innovations of the Russian Federation. The Department's 
path forward will be determined following the results of the NRC study 
and we continue to support dark energy R&D.

                            CLIMATE MODELING

    Question. The DOE plays a leadership role in the Nation's Climate 
Change Science Program that includes self-consistent modeling of the 
world's atmosphere, land, and oceans. For more than 20 years, Los 
Alamos National Laboratory scientist [sic] have utilized their 
substantial know-how and computational facilities to develop the best 
ocean and sea ice models, and have applied them to the coupled earth 
system models. This is a strong successful collaboration among the best 
and brightest from almost every national laboratory. What is the Office 
of Science program strategy for modeling and remote sensing in response 
to recent observations of the Greenland ice melt? Isn't there a sense 
of urgency to produce even more accurate sea ice predictions as Arctic 
ice thins, and also to build a model of Greenland glacial melting?
    Answer. The BER strategy is to continue its support for the 
leading-edge coupled ocean-sea ice modeling (COSIM) group at LANL as 
part of BER's broader climate change research subprogram. DOE 
researchers examined Arctic sea-ice under various emission scenarios 
for the IPCC Fourth Assessment Report using the Community Climate 
System Model. Because Arctic sea-ice is already in the ocean, its 
melting does not directly affect sea level, though it does affect 
navigability of the northern ocean. Researchers at LANL are currently 
examining the Greenland ice melt using an interactive ice-sheet model 
coupled to the other components of the climate model: land surface, 
sea-ice, and atmosphere. Ice-sheet models need to resolve fast-flow 
features such as ice streams, subglacial process physics, and marine 
processes, and also to include stress coupling. Thus, the challenge to 
get all these extremely complex processes well-represented in the 
models is immense. For glacial melt, the increased lubrication of 
glacier beds by increased summer melt water that drains down crevasses 
and moulins to the beds needs to be represented in the land-ice models. 
DOE does not carry out remote sensing, but we do use the results of 
remote sensing supported by other Federal agencies to evaluate or test 
the results of our modeling activities.

                           COMPUTER QUESTIONS

    Question. These big parallel supercomputers have always been very 
difficult to program and the knowledge to do so is only understood by 
specialists that exist in our Nation's National Laboratories and 
Universities. Now that computer manufacturers have started to produce 
multi-core processors, the technology needed for advancement in 
scientific understanding has become even more complicated and 
inaccessible.
    Can you describe the complete DOE investment strategy in this area, 
and speak specifically to how these investments go beyond simply 
supporting procurement of large hardware and represent tangible 
investments in the specialized scientists needed to make these machines 
available to the country?
    Answer. As a partner in the President's American Competitiveness 
Initiative, we are committed to keeping the United States at the 
forefront of High Performance Computing (HPC) and the computational 
sciences. In addition to acquiring large high performance computing 
resources that will generate millions of gigabytes per year of data, 
ESnet has entered into a long term partnership with Internet 2 to build 
the next generation optical network infrastructure needed for U.S. 
science. Further, SC will redirect a portion of its computer science 
and research portfolio to address major obstacles that would constrain 
the ability of a broad range of computational scientists to use 
petascale computers effectively in areas important to DOE's missions. 
Within our Applied Mathematics research program, for example, we are 
conducting a petascale data workshop to identify the next-generation 
mathematical techniques that will enable scientists to extract the 
scientific phenomena buried in massive complex data sets.
    Through our Scientific Discovery through Advanced Computing 
(SciDAC) program, applied mathematicians, computer scientists, and 
computational scientists are working in teams to create the 
comprehensive, scientific computing software infrastructure needed to 
enable scientific discovery in the physical, biological, and 
environmental sciences at the petascale and to develop efficient and 
scalable data management and knowledge discovery tools for large data 
sets. In 2006, we re-competed SciDAC (SciDAC-2) and introduced the 
concept of SciDAC Institutes to increase the presence of the program in 
the academic community and to complement the efforts of the SciDAC 
Centers. Our SciDAC Institutes will infuse new ideas and community 
focus into the SciDAC program, as well as provide students with 
valuable computational science experiences. In addition to SciDAC 
Institutes, SciDAC-2 expanded the original program by collaborating 
with the NNSA and the National Science Foundation as new funding 
partners.
    Finally, SC and NNSA will continue the successful Computational 
Science Graduate Fellowship to develop the next generation of 
computational science leaders.
    Question. There is a trend toward managing and extracting 
actionable knowledge from very large amounts of data. This trend has 
grown faster than traditional scientific simulation and has immediate 
importance in national security matters.
    How do you plan to ensure that your investment strategy is 
applicable to these new trends?
    Answer. Using the NSTC High-End Computing Revitalization Task Force 
report as our roadmap, we are undertaking a broad investment strategy 
for the deployment and utilization of new HPC resources. Our Leadership 
Computing Facilities provide architectural diversity so that 
researchers have the resources they need to tackle challenging 
scientific questions. The first petascale computer resource for open 
science will be operating at the Leadership Computing Facility (LCF) at 
Oak Ridge National Laboratory in late 2008. Additionally, the HPC 
resources at NERSC have undergone a significant upgrade so that they 
can continue to meet SC mission-critical needs and help prepare our 
researchers to make optimum use of the Oak Ridge LCF, as well as the 
LCF at Argonne National Laboratory. Because access to capability 
computing is so important to our national competitiveness, we have made 
the HPC resources at the LCF available to the open scientific community 
across Federal agencies and national laboratories, in universities, and 
in industry, through the Innovative and Novel Computational Impact on 
Theory and Experiment (INCITE) program.
    We are coupling our investment in hardware with a corresponding 
investment in our base computer science and applied mathematics 
research programs to develop system software and tools as well as new 
algorithms for analysis of multi-scale and complex data. Through our 
SciDAC Outreach Center we are disseminating SciDAC accomplishments to 
the broader HPC community.
    Within DOE, NNSA and SC have entered a research and development 
contract with IBM to develop the next generation of Blue Gene-based 
products. Oak Ridge is working with Sandia National Laboratories and 
Cray to develop a quad-core version of the Catamount operating system. 
Although the two programs are managed differently because of the NNSA's 
requirements for classified data, SC and NNSA will continue and grow 
our close collaboration in high performance computing research and 
testbeds.
    Within the broader community, we closely coordinate our activities 
with other Federal agencies through the Networking and Information 
Technology Research and Development (NITRD) subcommittee of the 
National Science and Technology Council (NSTC). Lastly, both SC and 
NNSA are formal mission partners in Phase III of the DARPA High 
Productivity Computing Systems (HPCS) research program. Phase III of 
the HPCS program is focused on the generation of HPC systems that will 
be available from Cray and IBM in the 2011 timeframe.
    Question. DOE has two major programs in computational sciences: the 
Office of Science program and the NNSA ASC program. These two programs 
seem to be managed very differently, and I am struck by the lack of 
synergy between them. Further, NSF and DARPA are pushing their own 
computer initiatives.
    Why isn't the DOE maintaining its leadership for the country in 
terms of a national investment strategy for technology and scientific 
investment for computing, computational sciences, and computer sciences 
for the future?
    Answer. DOE continues to maintain a leadership role in 
computational science and high end computing systems for open science. 
The first petascale computer resource for open science will be 
operating at the Leadership Computing Facility at Oak Ridge National 
Laboratory in late 2008. Within SciDAC we created a powerful, 
integrated research environment for advancing scientific understanding 
through modeling and simulation. NSF and NNSA have joined SC as funding 
partners for SciDAC-2. Through the INCITE program, we are making 80 
percent of the leadership computing facilities available to the open 
science community through a peer-reviewed process.
    Question. It appears that there is very little mission coordination 
among the various agencies in order to sustain a long term R&D program 
that goes beyond the purchase of a faster computer.
    How are you going to bring these various pieces together?
    Answer. Through the American Competitiveness Initiative, we will 
continue to work with our partners within DOE and NITRD on a national 
roadmap for the future. In addition, the Office of Science has focused 
partnerships with the mission agencies including NNSA, NSA, DOD, and 
DARPA.

                           SUPERCONDUCTIVITY

    Question. Given the fundamental science challenges inherent in 
superconductivity and recent successes in technology demonstration 
projects using second generation coated conductors, what is the Office 
of Science investment strategy for seizing basic and applied research 
opportunities in this area?
    Answer. In May, 2006, SC's Office of Basic Energy Sciences 
sponsored a workshop entitled Basic Research Needs for 
Superconductivity. The workshop identified seven ``priority research 
directions'' and two ``crosscutting research directions'' that capture 
the promise of revolutionary advances in superconductivity science and 
technology. The first seven directions set a course for research in 
superconductivity that will exploit the opportunities uncovered by the 
workshop panels in materials, phenomena, theory, and applications. 
These research directions extend the reach of superconductivity to 
higher transition temperatures and higher current-carrying 
capabilities, create new families of superconducting materials with 
novel nanoscale structures, establish fundamental principles for 
understanding the rich variety of superconducting behavior within a 
single framework, and develop tools and materials that enable new 
superconducting technology for the electric power grid that will 
dramatically improve its capacity, reliability, and efficiency for the 
coming century. The seven priority research directions identified by 
the workshop take full advantage of the rapid advances in nanoscale 
science and technology of the last 5 years. Superconductivity is 
ultimately a nanoscale phenomenon. Its two composite building blocks--
Cooper pairs mediating the superconducting state and vortices mediating 
its current-carrying ability--have dimensions ranging from a tenth of a 
nanometer to a hundred nanometers. Their nanoscale interactions among 
themselves and with structures of comparable size determine all of 
their superconducting properties.
    The workshop participants found that superconducting technology for 
wires, power control, and power conversion had already passed the 
design and demonstration stages. Second generation (2G) wires have 
advanced rapidly; their current-carrying ability has increased by a 
factor of 10, and their usable length has increased to 300 meters, 
compared with only a few centimeters five years ago. However, while 2G 
superconducting wires now considerably outperform copper wires in their 
capacity for and efficiency in transporting current, significant gaps 
in their performance improvements remain. The fundamental factors that 
limit the current-carrying performance of 2G wires in magnetic fields 
must be understood and overcome to produce a five- to tenfold increase 
in their performance rating.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. We thank you very much for coming here 
today and thank you for your work.
    This hearing's recessed.
    [Whereupon, at 2:54 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
